<html>
<title> - PRESERVING AMERICA'S ECONOMIC SECURITY</title>
<body><pre>[Senate Hearing 112-122]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-122
 
                 PRESERVING AMERICA'S ECONOMIC SECURITY

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                   FEBRUARY 5, 2011--CEDAR FALLS, IA

                               __________

         Printed for the use of the Committee on Appropriations


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
64-484                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294e5946694a5c5a5d414c4559074a464407">[email&#160;protected]</a>  


                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi, Ranking
TOM HARKIN, Iowa                     MITCH MCCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
DANIEL K. INOUYE, Hawaii             RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 THAD COCHRAN, Mississippi
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          LAMAR ALEXANDER, Tennessee
RICHARD J. DURBIN, Illinois          RON JOHNSON, Wisconsin
JACK REED, Rhode Island              MARK KIRK, Illinois
MARK PRYOR, Arkansas                 LINDSEY GRAHAM, South Carolina
BARBARA A. MIKULSKI, Maryland        JERRY MORAN, Kansas
SHERROD BROWN, Ohio
                           Professional Staff

                              Erik Fatemi
                              Mark Laisch
                            Adrienne Hallett
                             Lisa Bernhardt
                            Michael Gentile
                          Alison Perkins-Cohen
                        Laura Friedel (Minority)
                     Sara Love Rawlings (Minority)
                      Jennifer Castagna (Minority)

                         Administrative Support

                              Teri Curtin


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Tom Harkin..........................     1
    Prepared Statement of........................................     4
Statement of Benjamin J. Allen, Ph.D., President, University of 
  Northern Iowa..................................................     5
    Prepared Statement of........................................     8
Pell Grants, Affordability, and Accessibility....................     8
Federal Programs to Prepare Students for Success in College and 
  Life...........................................................    10
Final Observations...............................................    11
Prepared Statement of Emily Thatcher.............................    13
``Literacy for All''--Students with Significant Disabilities.....    13
Statements From Individuals Who Have Experience..................    13
TRIO Programs....................................................    13
UNI Classic Upward Bound.........................................    15
Statement of William Dotzler, Iowa State Senator, 11th District..    18
    Prepared Statement of........................................    20
Statement of Jerry Nelson, Field Office Manager, Social Security 
  Administration, Waterloo, Iowa.................................    22
    Prepared Statement of........................................    23
Statement of Kim Young-Kent, Executive Director, Tri-County Child 
  and Family Development Council, Waterloo, Iowa.................    25
    Prepared Statement of........................................    27
Statement of Jerry D. Durham, Ph.D., RN, FAAN, Chancellor, Allen 
  College of Nursing, Waterloo, Iowa.............................    30
    Prepared Statement of........................................    32
Statement of Mark A. Anderson, Assistant to the Bishop, 
  Northeastern Iowa Synod, Evangelical Lutheran Church in 
  America, Waverly, Iowa.........................................    33
    Prepared Statement of........................................    35
Statement of Jonathan Keniston, Student, Hawkeye Community 
  College, Waterloo, Iowa........................................    36
    Prepared Statement of........................................    38


                 PRESERVING AMERICA'S ECONOMIC SECURITY

                              ----------                              


                       SATURDAY, FEBRUARY 5, 2011

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                 Cedar Falls, Iowa.
    The subcommittee met at 12:33 p.m., in the Gallagher-
Bluedorn Performing Arts Center, University of Northern Iowa, 
Cedar Falls, Iowa, Hon. Tom Harkin (chairman) presiding.
    Present: Senator Harkin.


                opening statement of senator tom harkin


    Senator Harkin. The Senate Subcommittee on Labor, Health 
and Human Services, and Education, and Related Agencies will 
now come to order.
    Good afternoon everyone, and welcome. This subcommittee 
normally meets, of course, in Washington, DC. But from time to 
time, I like to hold field hearings in Iowa on matters of 
critical importance to the State and the Nation, and this is 
one such occasion.
    I might just again, as a way of putting it out, we have a 
Committee on Appropriations in both the House and the Senate, 
and on the Committee on Appropriations in the Senate, we have 
different subcommittees. For example, there is a Subcommittee 
on Defense that handles armed services, all our defense needs. 
There is, obviously, a Subcommittee on the Judiciary that 
handles our court systems and things like that.
    Then we have the subcommittee that I chair, which is the 
Subcommittee on Labor, Health and Human Services, and 
Education, and Related Agencies. It has jurisdiction over the 
Department of Health and Human Services, the Department of 
Education, the Department of Labor, and the National Institutes 
of Health, and the Centers for Disease Control and Prevention, 
and a number of other things like libraries.
    So I just wanted to set the stage for that so you know 
where this is coming from.
    Here in Cedar Falls and across America, there is serious 
concern about our record-high deficits. And we all understand 
that these deficits ultimately are unaffordable and 
unacceptable. We know that in the years immediately ahead, we 
must take aggressive and painful and unpopular steps to bring 
this deficit under control, both by cutting unnecessary 
spending and by raising revenues.
    Certainly, we took an important first step by passing, I 
think, the new health reform law, which will reduce the 
deficit, according to the Congressional Budget Office (CBO), by 
$240 billion in the first decade and nearly $1 trillion in the 
second decade. I also intend to push for a wide range of 
additional spending cuts. And I might just add, 
parenthetically, including eliminating some expensive cold war-
era weapons systems.
    However, I will strenuously oppose attempts to balance the 
budget on the backs of our most vulnerable and powerless people 
in our society, and I will insist that we continue to make 
prudent investments in education, infrastructure, biomedical 
research, the things that will help us, as President Obama 
said, to win the future.
    So, yes, Government should make tough decisions to live 
within its means, just as ordinary working families do. But if 
you are a family trying to reduce your debt, that doesn't mean 
you pull your daughter out of college. It doesn't mean you 
forgo replacing the worn-out brakes on your car or you stop 
taking your diabetes medication. These things would put you and 
your family at risk.
    Well, likewise, we need to maintain investments that are 
critical to the future of our American family even as we reduce 
overall spending. Now this is exactly my approach, as chair of 
this subcommittee that funds education, as I said, labor, 
health, and human services.
    There are places in this jurisdiction where we can reduce 
spending. In fact, I have recently proposed eliminating more 
than 20 duplicative or inefficient programs in these areas. We 
must also continue to root out waste, fraud, and abuse in 
Medicare and Medicaid. Every $1 that we spend on this effort 
returns $6 to the U.S. Treasury. So we need to do more in this 
area.
    Just last year, the Department of Health and Human 
Services, through their fraud and abuse prevention unit, 
recovered, actually recovered $4 billion for the taxpayers of 
this country through their fraud and waste control unit. Yet 
the proposed cuts would cut that very entity that is out there 
getting money back for the taxpayers.
    I will also insist on adequate funding for critical 
initiatives that help Iowans and all Americans to get a good 
education and acquire the skills they need to find jobs while 
also meeting the basic needs of seniors, children, those living 
in poverty, and people with disabilities. Those investments are 
at risk today.
    This past week, the House of Representatives announced that 
they will make drastic reductions to Federal health, education, 
and labor programs. They cut out more than $13 billion below 
the President's request for the current fiscal year. They 
haven't specified yet which programs they will cut. We will 
know more details next week, but they are going to hit 
Americans right where they live.
    Just one example, we know that, overall, the House 
leadership wanted to roll back Federal funding to fiscal year 
2008 levels. For a program like Head Start, that would mean 
cutting services to 120,000 kids across the country, about 
1,000 here in the State of Iowa.
    Today, we will hear from a local Head Start director, as 
well as other Iowans who are providing critical services to the 
people in this State with the help of Federal funding. I hope 
to learn a little bit more from them about the impact of this 
funding in Iowa and what it would mean if that funding were 
drastically cut.
    Now, before I introduce the witnesses, I am told that my 
staff handed out note cards when you signed in. If you have a 
question for me or for the witnesses, please write it out on 
that card. My staff will collect them near the end of the 
hearing. We will try to answer as many as time would allow at 
that time.
    I will introduce the panel who is here, and then we will 
just kind of go from my right to my left in terms of testimony.
    Dr. Benjamin J. Allen became the ninth president of the 
University of Northern Iowa (UNI) in 2006. He also co-chairs 
the Iowa Business Council's Education Excellence in Iowa 
Roundtable. Dr. Allen received his bachelor's degree from 
Indiana University, as well as master and doctorate degrees 
from the University of Illinois.
    The Honorable William Dotzler, Senator Dotzler was elected 
in 2010 to his third term representing Senate District 11 in 
Waterloo. Senator Dotzler is chair of the Economic Development 
Budget Subcommittee and vice chair of the Economic Growth 
Committee. He also serves on the appropriations, labor, human 
resources, ways and means committees. Senator Dotzler received 
his associate's degree from North Iowa Area Community College 
and a bachelor's degree from University of Northern Iowa.
    Gerald Nelson is the manager of the Social Security 
Administration field office in Waterloo. He has been with the 
Social Security Administration for 23 years. His assignments 
have taken him to offices throughout the Midwest in Ohio, 
Minnesota, Kansas City, Chicago, and now back here. He is a 
graduate of UNI.
    Kim Young-Kent is the executive director of the Tri-County 
Child and Family Development Council. A native of Cedar Falls, 
she received her bachelor's degree from Buena Vista University 
in Storm Lake and her master's degree from UNI.
    Dr. Jerry Durham serves as the chancellor and professor of 
nursing at the Allen College of Nursing. He previously served 
as vice chancellor of academic affairs and professor of nursing 
at the University of Missouri-St. Louis. He holds six 
university degrees, including three in nursing, and a doctorate 
in higher education administration from St. Louis University.
    Reverend Mark Anderson is the assistant to the bishop in 
the Northeastern Iowa Synod of the Evangelical Lutheran Church 
in America. As part of his duties, Pastor Anderson serves as 
the liaison between the synod and its related institutions, 
including Barnabas Uplift, which we will hear about. He is a 
graduate of the Lutheran School of Theology at Chicago and 
Luther College in Decorah.
    And last, we will have Jonathan Keniston. Mr. Keniston is 
currently a student at Hawkeye Community College, a native of 
Waterloo, a graduate of East High School, and an Air Force 
veteran.
    So we welcome you all here. Your statements, and I have 
read them all over, will be made a part of the record in their 
entirety. And what I would like to ask is if you could just sum 
it up in 5 or 6 minutes, 7 minutes? I don't have a real clock 
here, but if you sum up your testimony, I would sure appreciate 
it.
    And before I start with Dr. Allen, I have some other people 
I would like to introduce here. State Representative Bob 
Kressig, District 19, is here. And our county supervisor, John 
Miller, I am told, is here. Former State Senator Bill Heckroth 
is here, I am told. Hawkeye Community College president Dr. 
Linda Allen is here. Dr. Allen, thank you for being here.
    And Congressman Braley was unable to be here today, but he 
has his person here, Jake Oeth, who is here from Congressman 
Braley's office. I hope I didn't miss anyone.
    But thank you all for coming to this, I think, very 
important hearing at a critical time in our country when we are 
trying to figure out how to reduce our deficit and how to make 
sure that our country is able to grow and win the future, as 
President Obama said.
    [The statement follows:]

                Prepared Statement of Senator Tom Harkin

    The Subcommittee on Labor, Health and Human Services, and Education 
and Related Agencies will now come to order.
    Good afternoon, everyone. This subcommittee normally meets in 
Washington, DC, of course, but from time to time I hold field hearings 
in Iowa on matters of critical importance to our State. This is one 
such occasion.
    Here in Cedar Falls, and across America, there is serious concern 
about record-high budget deficits. We all understand that these 
deficits, ultimately, are unaffordable and unsustainable. We know that, 
in the years immediately ahead, we must take aggressive, painful, and 
unpopular steps to bring the deficit under control--both by cutting 
unnecessary spending and by ending unaffordable tax breaks for the 
wealthy.
    Certainly, we took an important first step by passing the new 
health reform law, which will reduce the deficit by nearly a quarter-
trillion dollars in the first decade and nearly $1 trillion in the 
second decade. I intend to push for a wide range of additional spending 
cuts, including eliminating expensive Cold War-era weapons systems.
    However, I will strenuously oppose attempts to balance the budget 
on the backs of the most vulnerable and powerless people in our 
society. And I will insist that we continue to make prudent investments 
in education, infrastructure, and biomedical research--the things that 
will help us, as President Obama put it in his State of the Union 
address, ``to win the future.''
    Yes, Government should make tough decisions to live within its 
means--just as ordinary working families do, sitting around the kitchen 
table. But if you are a family trying to reduce debt, that doesn't mean 
you pull your daughter out of college. It doesn't mean you forgo 
replacing worn-out brakes on your car, or that you stop taking your 
diabetes medication. These things would put you and your family at 
risk. Well, likewise, we need to maintain investments that are critical 
to the future of our American family, even as we reduce spending 
overall.
    This is exactly my approach as chair of the Senate appropriations 
subcommittee that funds labor, health and human services, and 
education. There are places within my jurisdiction where we can reduce 
spending--in fact, I have proposed eliminating more than 20 duplicative 
or inefficient programs in these areas.
    We also must continue to root out waste, fraud, and abuse in 
Medicare and Medicaid. Every $1 that we spend on this effort returns $6 
to the U.S. Treasury, so we need to do more in this area. My 
subcommittee will examine this issue later this month at a hearing in 
Washington.
    However, I will insist on adequate funding for critical initiatives 
that help Iowans and all Americans to get a good education and acquire 
the skills they need to find jobs, while also meeting the basic needs 
of seniors, children, those living in poverty, and people with 
disabilities.
    Those investments are at risk today. This past week, House 
Republicans announced that they will make drastic reductions to Federal 
labor, health, education, and programs--a cut of more than $13 billion 
below the President's request for the current fiscal year. They didn't 
specify yet which programs they will cut--we should know more details 
next week--but we can be sure the cuts will be deep, and they will hit 
Americans right where they live.
    Just one example: We know that, overall, House Republicans want to 
roll back Federal funding to fiscal year 2008 levels. For a program 
like Head Start, that could mean cutting services to 120,000 
disadvantaged children across the country--960 in Iowa.
    Today we will hear from a local Head Start director, as well as 
other Iowans who are providing critical services to people in this 
State with the help of Federal funding. I hope we will learn a little 
more from them about the impact of this funding in Iowa, and what it 
would mean if that funding were drastically cut.
    Before I introduce the witnesses, my staff handed out notecards as 
you signed in. If you have a question for me or for the witnesses, 
please write it out on that card. My staff will collect the cards near 
the end of the hearing, and we'll try to answer some of the questions 
as time allows.

    Senator Harkin. So, with that, Dr. Allen, thank you again 
for your stewardship of this great university. Thank you for 
hosting us here today in this wonderful facility. And as one of 
our college presidents in our region's institutions, you have a 
front-row seat, so to speak, as to what is happening with 
students and to what is happening with education. And so, I 
appreciate your stewardship of the UNI. Thank you for being 
here, and please proceed.

STATEMENT OF BENJAMIN J. ALLEN, Ph.D., PRESIDENT, 
            UNIVERSITY OF NORTHERN IOWA
    Dr. Allen. Thank you, Senator Harkin.
    It is an honor to have the opportunity to host this event. 
At UNI, we serve more than 13,000 students, 90 percent of whom 
are from the State of Iowa. Seventeen percent are first-
generation students, and we define that as parents who do not 
have any type of college credit.
    More than 75 percent of UNI students stay in Iowa for their 
first job or for graduate school. UNI can provide no better 
assistance in the area of economic development than to provide 
a quality education to these students who tend to stay in Iowa 
after graduation.
    The availability of Federal student financial aid is 
foundational to access for many of our students, particularly 
the first-generation students. For the United States to compete 
in the global economy, its citizens must have education and 
skills that equal and exceed that of people from other 
countries.
    In the past several decades, we have slipped as a country 
in terms of the percentage of adults with postsecondary 
education degrees. The most recent census data report shows 
that the percentage of Iowans with a bachelor's degree is below 
the national average.
    Clearly, our universities must do their parts to make 
higher education affordable. We must continue to be vigilant in 
searching for ways to contain costs. Universities must also do 
more in providing financial aid of all types to provide 
opportunities for qualified students.
    However, funding at the State level is making that goal 
more difficult to achieve. At the State level, funding for UNI 
has decreased over the past 2 years by approximately $20 
million. Despite this reduction, we have maintained a set-aside 
of at least 18 percent of tuition for financial aid to help 
provide more access to higher education. This constitutes more 
than $12 million.
    Furthermore, we have dedicated an additional $10 million of 
university funds for student employment beyond the Federal Work 
Study Program. Nearly 75 percent of our students work to help 
support their education.
    A summary of financial programs at UNI is included in 
exhibit 1. I call to your attention the academic 
competitiveness and SMART grant programs, which have been 
eliminated for the 2011-2012 fiscal year. This will represent a 
loss of $1 million financial aid here at UNI.
    The economic recession has put considerable stress on 
families and their ability to afford higher education. Over the 
last 3 years at UNI, students receiving Pell grants increased 
from 25 percent to 30 percent, or nearly 700 students. During 
the 2009-2010 academic year, more than 3,300 UNI students were 
awarded a total of $11 million in Pell grant money.
    Yet the unmet needs of our students averages $6,500 plus 
per person. If the amount available for Pell grants were to be 
reduced by 20 percent, as some in the Congress have suggested, 
the net effect could be a doubling of the out-of-pocket 
expenses for a student receiving the maximum Pell grant. Many 
students will face the unfortunate choice of dropping out or 
borrowing more.
    At UNI, the level of debt upon graduation for students who 
have taken out loans has risen by 67 percent in the past 10 
years, reaching an average of $25,700. The data strongly 
suggest the impact of the importance of the Pell grant program 
and other need-based programs promoting student success at UNI. 
More compelling are the examples of talented people who are 
given an opportunity to earn a degree and eventually make 
significant contributions to the economy.
    Ms. Danielle Stuck is a junior and working toward her 
psychology degree. It should be noted that she graduated from 
high school in Iowa. She is attending college in Iowa, and she 
plans to stay in Iowa after graduation. She is a first-
generation college student who is a straight A student.
    She is able to attend college only because of the help of 
the Pell grant and a few other scholarships. She stated that 
this aid made a huge difference in her life. She states, ``To a 
young college student struggling to get by, the Federal Pell 
grant is truly a blessing.'' What a loss it would be for us not 
to have this student have the opportunity to get an education.
    We are very pleased to hear on February 1 that the 
Department of Education issued the Pell grant schedule, 
indicating that for the academic year 2011-2012 the maximum 
grant will be $5,550. Senator Harkin, your leadership in 
securing the funding necessary to make that happen is greatly 
appreciated. The challenge now is to sustain that level.
    As you know, UNI is the largest preparer of teachers in the 
State, with more than 500 new teachers graduating each year. 
And UNI is providing a leadership role in addressing the 
shortage of teachers in the area of special education. The work 
that is being done by our federally funded Center on Literacy, 
Language, and Disability Studies in Early Childhood Education, 
in partnership with the Iowa Department of Education, has 
particular promise for the future of early childhood and early 
elementary schoolchildren with special needs. We are working to 
build literacy, language, and communication skills, which are 
the essential building blocks for all education.
    Because of time, I will skip the comments from a consultant 
with the Iowa Department of Education. But she basically 
indicates that we are making tremendous progress in providing 
opportunities for these students to continue their education.
    UNI places a high priority on providing a quality education 
to financially disadvantaged and minority students. Many 
students, particularly first generation, would never aspire to 
college were it not for the TRIO programs. This past academic 
year, UNI has served more than 3,300 students, individuals 
through its Educational Opportunity Center, Educational Talent 
Search, and Upward Bound programs. Two-thirds of these students 
were low income and first generation, and nearly one-half were 
minority.
    These are the populations which form the base for America's 
economic future. You and I can cite many individuals who were 
helped or are being helped by the TRIO programs. Examples of 
success stories are provided in exhibit 3.
    I would like to highlight how the TRIO program has helped 
one individual who is now helping the United States advance in 
a critically important area, and that is science education. 
What is more important than that for economic development?
    Reygan Freeney, a former participant of the TRIO programs 
and a soon-to-be holder of a Ph.D. degree in chemistry from the 
University of Iowa, is an instructor in our Department of 
Chemistry and Biochemistry. Ms. Freeney places an 
extraordinarily and well-deserved high value on the TRIO 
programs here at UNI.
    She says, ``I was a low-income African-American girl from a 
single-parent household, residing on the east side of Waterloo, 
Iowa, and labeled as a low-income, disadvantaged youth. The 
Classic Upward Bound Program challenged me to become a 
scholar,'' she states, ``and the Student Support Service 
Program fostered its growth while I attended college.''
    She states, ``I believe I was worth the investment of the 
TRIO programs. It provided me with awareness and empowerment 
that a lonely child growing up on the wrong side of the tracks 
did not have access to. Statistically speaking,'' she states, 
``I should not be where I am today. TRIO has equipped me with 
the tools for being a change agent and an investment in 
America's future.''
    Her statement indicates the profound impact that TRIO has 
on the individual.
    In closing, we are right to talk about education and 
economic development. As you know, I am an economist. I 
appreciate those conversations. But we should also be talking 
about the values of this Nation. Offering every young man and 
woman and, indeed, displaced adults the opportunity to obtain 
the knowledge and tools needed for a successful, productive 
life is the right thing to do.
    To make that happen, these students first have to recognize 
that the opportunity exists for them to get a degree and to be 
properly prepared for college. The TRIO programs address both 
of those issues. Pell grants, scholarships provided by the 
universities and others, and reasonable tuition levels address 
the issue of affordability. We are not doing enough now. To 
start doing less would be wrong.
    I want to extend my deep appreciation to you, Senator 
Harkin, for your outstanding leadership and commitment to 
programs in education, health and human services, and the 
workforce. We must not let these programs erode.
    Thank you very much.
    Senator Harkin. Thank you, Dr. Allen, for a very pointed 
and profound statement. Thank you very, very much.
    [The statement follows:]

              Prepared Statement of Dr. Benjamin J. Allen

                              INTRODUCTION

    Senator Harkin, staff members, ladies and gentlemen, I am pleased 
to have this opportunity to speak to the critical issue of ``Preserving 
America's Economic Security.'' I have had the honor of serving as 
president of the University of Northern Iowa (UNI) for the past 4\1/2\ 
years. I have served as a faculty member or administrator at one of the 
Regents universities for the past 30 years. At UNI, we serve more than 
13,000 students, 90 percent of whom are from the State of Iowa. Our 
students are predominantly undergraduate students. Seventeen percent 
are first-generation college students from families where neither 
parent has earned any college credits. More than 75 percent of UNI's 
students stay in Iowa for their first jobs or for graduate school. I 
have consistently argued that UNI can provide no better assistance in 
the area of economic development than to provide a quality education to 
these students who tend to stay in Iowa after graduation.
    As an educator, I recognize that we are at a critical time in our 
Nation's history as our once world-leading status in educational 
achievement has slipped. At the heart of economic security is an 
educated and productive citizenry: our human capital. As an economist, 
I am well aware of the research that documents the direct relationship 
between educational attainment and economic productivity. Thus, it is 
essential that access to a high-quality education be equitably 
available to all students. The availability of Federal student 
financial aid is foundational to access for millions of students today 
and must be preserved, particularly for first-generation students who 
face significant challenges in making their dream of college a reality.
    My testimony today will focus on the programs at UNI supported by 
Federal funds that increase the accessibility to higher education for 
more students and improve the quality of the education they receive. I 
will provide real examples of people who are being and have been helped 
to achieve their educational goals and are contributing to the State 
and national economies as the result of their participation in 
federally funded programs. Although my perspective is from UNI, I 
believe that similar examples and arguments can be made across Iowa and 
the Nation.
    While financial aid is the largest single component of the Federal 
funding which the university receives, other programs from the U.S. 
Department of Education provide funding that serves a critical role in 
enabling students to attain the skills and abilities to be ready for 
higher education, beginning with the early childhood years. After 
discussing the value of the Pell Grant program for our students at UNI, 
I will highlight two other areas that help tremendously in providing 
access to not only education but to the opportunity to make a 
contribution to the economy and society. These two areas are teacher 
education, with an emphasis on special education, and the TRIO 
programs.

             PELL GRANTS, AFFORDABILITY, AND ACCESSIBILITY

    For the United States to compete in the global economy, its 
citizens must have the education and skills that equal and exceed that 
of people from other countries. In the past several decades, we have 
slipped as a country in terms of the percentage of adults with a post-
secondary education degree. The most recent census data report that 
24.3 percent of Iowans have a bachelor's degree, below the national 
average of 27.7 percent (U.S. Census Bureau, Statistical Abstract of 
the United States: 2011). We must make higher education accessible and 
affordable to more Americans.
    Clearly our universities must do their part to make higher 
education affordable. We at UNI understand that and we also know we 
must be vigilant in searching for ways to contain costs. We have taken 
steps to remove administrative costs by combining two colleges, 
combining two departments, eliminating a vice president position and a 
division, reducing general funds to athletics, combining other 
administrative positions, and eliminating programs that have low 
enrollment. We have also collaborated with the University of Iowa and 
Iowa State University in areas of information technology, human 
resources, and facilities planning. We will continue to vigorously 
explore ways to maintain the quality of education provided with a 
minimum of resources.
    Universities, including UNI, must also do more in providing 
financial aid of all types to provide opportunities for all qualified 
students. Having said that, however, funding at the State level is 
making that goal difficult to reach. At the State level, funding for 
UNI has decreased over the past 2 years by approximately $20 million, a 
greater than 20 percent decrease in State funding. Despite this 
reduction we have maintained a set-aside of at least 18 percent of 
tuition for financial aid to help provide more access to higher 
education. This constitutes $12,793,629. Furthermore, we have dedicated 
an additional $10 million plus university funds for student employment 
beyond the Federal work study program. Nearly 75 percent of our 
students work to help support their education. In addition, UNI has 
focused its fundraising campaign on student scholarships. In October, 
we announced a $10 million gift from Mark and Jill Oman that will fund 
scholarships. A summary of financial programs at UNI is included in 
exhibit 1. I call to your attention the Academic Competitiveness and 
Smart Grant programs which have been eliminated for 2011-2012. This 
will represent a loss of $1 million in financial aid at UNI.
    For fiscal year 2012, we are anticipating further budget reductions 
from the State. The Governor's budget proposes a 6 percent cut, 
approximately $4.6 million, for UNI. It is obvious that we need the 
Federal Government to maintain its student aid and education program 
funds for access to be maintained and important education programs 
preserved.
    The economic recession, from which we are still recovering, has put 
considerable stress on families and their ability to afford higher 
education. Over the last 3 years at UNI we have seen the proportion of 
students receiving Pell grants increase from 25 percent to 30 percent, 
or an additional 700 students. During the 2009-2010 academic year, more 
than 3,300 UNI students were awarded a total of about $11 million, an 
increase of 42 percent more than the previous year. A portion of this 
increase is due to the opportunity for students to receive a summer 
Pell Grant. Yet, the unmet need of our students averages $6,544 per 
person. If the amount available were to be reduced by 20 percent, as 
some in the Congress have suggested, the net effect could be a doubling 
of the out-of-pocket expenses for a student receiving the maximum Pell 
grant. Many students will face the unfortunate choice of dropping out 
or borrowing more.
    At UNI, the level of debt upon graduation for students who have 
taken out loans has risen by 67 percent over the past 10 years, 
reaching an average of $25,735 for our most recent graduating class. 
These large debt loads in themselves constitute a risk to economic 
security. For example, the outstanding graduates of our teacher 
education program might not choose to enter the vitally important 
teaching profession because of the challenge of repaying their student 
loans on the relatively low incomes of beginning teachers
    The data strongly suggest the impact and importance of the Pell 
program and other need-based programs in promoting student success at 
UNI. More compelling are the examples of talented people who are given 
an opportunity to earn a degree and eventually make significant 
contributions to the economic future of this country.
    Let me introduce you to Ms. Danielle Stuck, who is a Pell Grant 
recipient. She is currently a junior at UNI working towards her 
psychology degree. She plans on either pursuing a clinical psychology 
degree or going to graduate school to become a college professor. It 
should be noted that she graduated from high school in Iowa, she is 
attending college in Iowa, and she intends to live in Iowa upon 
graduation. She is a first-generation college student with no parental 
guidance or support. College was clearly not a guarantee for her. She 
was able to attend college only because of the help of the Pell Grant 
and a few scholarships. She stated that this aid made a huge difference 
in her life. It opened doors that were inaccessible to her due to 
factors that were not in her control. She states, ``To a young college 
student struggling to get by, the Federal Pell Grant is truly a 
blessing.'' She did not tell us this but we got permission to share 
that she was valedictorian of a class of 312 at Thomas Jefferson High 
School and she carries a perfect 4.0 grade point average at UNI as a 
member of the Honors Program. What a loss it would be for all of us not 
to have a student of her ability able to attend college.
    We were very pleased to hear on February 1, that the Department of 
Education (ED) issued the Pell grant schedule indicating that for the 
academic year of 2011-2012 the maximum grant will be $5,550. Senator 
Harkin, your leadership in securing the funding necessary to make that 
happen is greatly appreciated. The challenge now is to sustain that 
level.
    Given the recent sharp increase in demand for Pell Grants and the 
implications for future funding, there are indications the new Congress 
may re-examine the Pell Grant Program. I encourage you and your 
colleagues to avoid policies that would restrict student access by 
penalizing students, like Danielle Stuck, in their ability to pursue a 
legitimate course of study at an institution of higher education and, 
in the long-run, to make great contributions to the economy of the 
United States.

  FEDERAL PROGRAMS TO PREPARE STUDENTS FOR SUCCESS IN COLLEGE AND LIFE

    While financial aid is the largest single component of the Federal 
funding which UNI receives, other programs from ED provide funding 
which serves a critical role in enabling students to attain the skills 
and abilities to be ready for higher education, beginning with the 
early childhood years. I would like to highlight two areas: teacher 
education, with an emphasis on special education, and the TRIO 
programs.
    Teacher education with emphasis on special education. As you know, 
UNI is the largest preparer of teachers in the State with more than 500 
new teachers graduating each year, and UNI has provided a leadership 
role in addressing the shortage of teachers certified in special 
education. Federal grants continue to enable us to provide courses for 
teachers who are not certified, professional development for teachers 
in the field, and enrichment for our teacher education programs on 
campus.
    Our work now by our federally funded Center on Literacy, Language, 
and Disability Studies in Early Childhood Education, in partnership 
with the Iowa Department of Education, has particular promise for the 
future of early childhood and early elementary school children with 
special needs. We are working with children and teachers in inclusive 
classrooms on new teaching methods to build literacy, language, and 
communication skills, which are the essential building blocks for all 
education. For too many years it has been assumed that special needs 
children could not attain literacy and communication skills. With 
innovations in technology and approaches that integrate sensory 
activities with traditional pedagogies, our work is demonstrating gains 
well beyond previous expectations. Our work has also extended to 
parents and family centered practices to foster and enhance learning. 
Exhibit 2 contains a statement by Emily Thatcher, Consultant, Bureau of 
Student and Family Support Services, Iowa Department of Education, 
which speaks to the impact of our work:

    ``In little more than 2 years of these projects, students with 
significant disabilities are demonstrating increased ability to 
communicate and grow in their literacy skills and challenge their 
teachers to provide greater levels of literacy instruction. As gains in 
literacy and communication skills are demonstrated, family involvement 
has increased and many are encouraged to consider educational outcomes 
not thought to be obtainable for their students.''

    This is not the time to cut back on programs that hold such promise 
for our children. The economic payback of this investment in this 
cutting-edge, research-based education that prepares students to be 
contributing members of society is substantial.
    TRIO Programs.--UNI places a high priority on providing a quality 
education to financially disadvantaged and minority students. 
Accordingly, UNI is proud to be partner with the Federal Government in 
providing the TRIO programs. Many students, particularly first 
generation, would never aspire to college or believe it was in the 
realm of possibility were it not for the TRIO programs. This past 
academic year, UNI served 3,385 individuals through its Educational 
Opportunity Center, Educational Talent Search, and Upward Bound 
programs. Two thirds of these students were low income and first 
generation. Nearly half were minority. These are the populations which 
form the base for America's economic future. The TRIO programs have 
demonstrated success in reducing the achievement gap. These gains in 
achievement and productivity are critically important if the United 
States wants to regain its competitiveness in the global economy. 
Cutting back these programs will indirectly affect the long-term 
vitality of the economy. Now is not the time to reduce the funding for 
these programs.
    Full recovery from the recession will require more people with more 
education. To be competitive and creative and entrepreneurial in the 
global business environment individuals need knowledge and skills 
appropriate for the 21st century in science, mathematics, and 
technology; in foreign language and cultural understanding; and in 
entrepreneurship and innovation. All of this requires the very best 
prepared teachers and an education system that serves all of our 
citizens from birth to death.
    UNI can cite many individuals who were helped or are being helped 
by TRIO programs. Examples of success stories are provided in exhibit 
3. I would like to highlight how the TRIO has helped one individual who 
is now helping the United States advance in a critically important area 
for economic development--science education. Reygan Freeny, a former 
participant of the TRIO programs and a soon-to-be holder of a Ph.D. 
degree in chemistry from the University of Iowa, is an instructor in 
our department of chemistry and biochemistry. Ms. Freeny places an 
extraordinarily and well-deserved high value on the TRIO programs here 
at UNI.

    ``I was a low-income, African-American girl from a single parent 
household residing on the eastside of Waterloo, Iowa and labeled as a, 
'low-income, disadvantaged youth.' This was my identifier before 
becoming a participant in the Classic Upward Bound (CUB) Program. The 
program leveled the educational and socioeconomic playing field for a 
poor girl whose mother only graduated from high school.
    ``The CUB program challenged me to become a scholar . . . and the 
Student Support Services (SSS) program fostered its growth while I 
attended college. The SSS program staff served as academic advisors, 
confidants, and (at times) a surrogate mother because my family did not 
understand many of the issues I faced as a college student.
    ``I think about these programs and the impact on my life and how my 
mother and I sat in an office filing out the FAFSA Federal Student Aid 
form and she had never planted a foot in a university office before 
this meeting. I have finished all the requirements for my Ph.D. in 
chemistry and will be defending my dissertation related to nanoscience 
shortly. I believe I was worth the investment of the TRIO programs; it 
provided me with awareness and empowerment that a lonely child growing 
up on the wrong side of the tracks did not have access to. 
Statistically speaking, I should not be where I am today. TRIO has 
equipped me with the tools for being a change agent and an investment 
in America's future.''

    This statement by Ms. Freeny identifies the profound effect the 
TRIO programs have on the individual. One could argue that these 
programs effectively end the poverty cycle in many families, as well as 
add to the workforce highly educated individuals.

                           FINAL OBSERVATIONS

    We are right to talk about education and economic development, but 
we should also be talking about the values of this Nation. Offering 
every young man and woman, and indeed displaced adults, the opportunity 
to obtain the knowledge and tools needed for a successful productive 
life is the right thing to do. Here at UNI, and I would argue that at 
all institutions of higher learning, we strive to make every student 
achieve the best education possible for them. To make that happen, 
those students first have to recognize that the opportunity exists for 
them to get a degree. Those students have to be prepared properly for 
college. The TRIO programs address both of those issues. And, of 
course, those students have to be able to afford to attend a college or 
university. Pell grants, scholarships provided by the universities and 
others, and reasonable tuition levels address the issue of 
affordability. We know that currently we are helping many, but 
certainly not all. We are not doing enough--to start doing less would 
be wrong. I want to extend our deep appreciation to you, Senator 
Harkin, for your outstanding leadership and commitment to programs in 
education, health, human services, and the workforce. We must not let 
these programs erode.
    Thank you very much. I would be pleased to respond to questions.

                                 EXHIBIT 1.--UNIVERSITY OF NORTHERN IOWA STUDENT FINANCIAL AID ANNUAL REPORT--2009-2010
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          2008-2009                                 2009-2010                       Percent change
                                         ---------------------------------------------------------------------------------------------------------------
             Notable change                Number of      Value of                   Number of      Value of                    Number of     Value of
                                             awards        awards       Mean award     awards        awards       Mean award     awards        awards
--------------------------------------------------------------------------------------------------------------------------------------------------------
     Student Financial Aid Programs

Total...................................       37,136    $124,372,381       $3,349       38,145    $128,829,476       $3,377           2.7          3.6
Institutional and Private Gift Aid......        9,005     $19,085,997       $2,119        9,702     $19,984,057       $2,060           7.7          4.76
Institutional Scholarships/Grants.......        5,607     $10,422,989       $1,859        6,968     $12,017,114       $1,725          24.3         15.3
Corporate/Private Scholarships..........        3,015      $5,590,579       $1,854        2,342     $4,898,7751       $2,092         -22.3        -12.4
Athletic Scholarships...................          383      $3,072,429       $8,022          392      $3,068,168       $7,827           2.3         -0.1
Federal and State Grants................        5,535     $13,320,398       $2,407        6,405     $16,776,728       $2,619          15.7         25.9
Federal Pell Grant \1\..................        2,567      $7,642,360       $2,977        3,309     $10,882,051       $3,289          28.9         42.4
Academic Competitiveness Grant \1\......          560        $474,480         $847          608        $491,527         $808           8.6          3.6
National SMART Grant \1\................          107        $318,579       $2,977          187        $573,673       $3,068          74.8         80.1
Supplemental Education Opportunity Grant          550        $545,536         $992          590        $556,989         $944           7.3          2.1
 \1\....................................
TEACH Grant \1\.........................          168        $606,307       $3,609          314      $1,205,082       $3,838          86.9         98.8
ROTC \1\................................           17        $111,631       $6,567            8         $62,471       $7,809         -52.9        -44
Other Federal Grant/Scholarship Programs          490      $1,393,872       $2,845          439        $988,018       $2,251         -10.4        -29.1
 \1\....................................
All Iowa Opportunity Scholarship........           87        $502,028       $5,770           55        $295,792       $5,378         -36.8        -41.1
IMAGES Grant............................          182        $337,700       $1,855          204        $332,200       $1,628          12.1         -1.6
Iowa Grant..............................          207        $169,866         $821          191        $161,830         $847          -7.7         -4.7
Vocational Rehabilitation...............          166        $453,441       $2,732          179        $523,610       $2,925           7.8         15.5
Commission for the Blind................            3         $10,821       $3,607            2         $11,163       $5,582         -33.3          3.2
Other State Grants......................          335        $290,121         $866          223        $286,548       $1,285         -33.4         -1.2
National Guard..........................           96        $463,656       $1,855           96        $405,774       $4,227  ............        -12.5
Loans...................................       17,396     $80,741,386       $4,641       17,273     $80,608,345       $4,667          -0.7         -0.2
State Loans.............................  ...........  ..............  ...........  ...........  ..............  ...........  ............  ............
Federal Perkins \1\.....................          451        $803,701       $1,782          511        $845,398       $1,654          13.3          5.2
Direct Loans \1\........................       15,751     $72,515,429       $4,604       16,118     $75,876,571       $4,708           2.3          4.6
Private Loans...........................        1,194      $7,422,256       $6,216          644      $3,886,376       $6,035         -46.1        -47.6
Employment..............................        5,200     $11,224,600       $2,159        4,765     $11,460,436       $2,405          -8.4          2.1
Federal Work-Study \1\..................          515        $678,925       $1,318          512        $769,415       $1,503          -0.6         13.3
Iowa Work-Study.........................           77        $101,354       $1,316  ...........  ..............  ...........        -100         -100
Graduate Teaching, Research                       380      $2,320,737       $6,107          362      $2,263,481       $6,253          -4.7         -2.5
 Assistantships.........................
UNI Employment..........................        4,228      $8,123,584       $1,921        3,891      $8,427,450       $2,166          -8            3.7
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Federal programs.

                               Exhibit 2


                  Prepared Statement of Emily Thatcher

      ``LITERACY FOR ALL''--STUDENTS WITH SIGNIFICANT DISABILITIES

    The Iowa Department of Education, Bureau of Student and Family 
Support Services has established two innovative 5-year projects to 
increase the communicative and literate lives of students with 
significant disabilities. These projects, Literacy, Language, and 
Communication for Students with Significant Developmental Disabilities: 
Reaching Potential through Systemic and Sustainable Statewide 
Professional Development and Comprehensive Communication and Literacy 
Project are designed to include collaborative partnerships spanning 
Higher Institutes of Education, Area Education Agency and Local school 
district personnel. Faculty of the University of Northern Iowa in the 
Center for Disabilities in Literacy, Language, and Learning and Dr. 
Karen Erickson, of the University of North Carolina, Chapel Hill 
Department of Allied Health Sciences, Center for Literacy and 
Disabilities Studies are collectively sharing their expertise to 
support 25 classroom sites across the state of Iowa.
    The reasons and purposes for supporting literacy and communication 
instruction for students with significant disabilities are grounded in 
the belief and knowledge that all students regardless of the level or 
nature of their disability have the potential to become literate adults 
when given the opportunity to be engaged in comprehensive literacy 
instruction. Research also supports the level of literacy to greatly 
impact the quality of life for individuals that includes employability, 
health, and civic engagement--all of which are valued and desired for 
students who face great obstacles in becoming independent within these 
activities.
    In little more than 2 years of these projects, students with 
significant disabilities are demonstrating increased ability to 
communicate and grow in their literacy skills and challenge their 
teachers to provide greater levels of literacy instruction. As gains in 
literacy and communication skills are demonstrated, family involvement 
has increased and many are encouraged to consider educational outcomes 
not thought to be obtainable for their students.
    Through support of these projects and belief of Literacy for All, 
the Iowa Department of Education is committed to eliminate the 
achievement gap and provide greater educational opportunity in literacy 
instruction that will lead to meaningful life outcomes for students 
with significant disabilities.

                               Exhibit 3

            Statements From Individuals Who Have Experience

                             TRIO PROGRAMS
Reygan Freeney
    According to Charles Darwin, ``If the misery of the poor be caused 
not by the laws of nature, but by our institutions, great is our sin.'' 
This is why the Federal TRIO programs are of such importance. I was a 
low-income, African-American girl from a single parent household 
residing on the eastside of Waterloo, Iowa and labeled as a, ``low-
income, disadvantaged youth.'' This was my identifier before becoming a 
participant in the Classic Upward Bound Program (CUB). The Upward Bound 
program has had substantial influence on my life in immeasurable ways. 
The program leveled the educational and socioeconomic playing field for 
a poor girl whose mother only graduated from high school.
    The Classic Upward Bound Program challenged me to become a scholar. 
Initially, the program made a connection with me that eventually lead 
to a difference within me. It planted and nurtured the seed of a 
quality education and the Student Support Services (SSS) program 
fostered its growth while I attended college. I was the first person in 
my entire family to attend and graduate college. The SSS program staff 
served as academic advisors, confidants, and (at times) a surrogate 
mother because my family did not understand many of the issues I faced 
as a college student.
    TRIO programs encouraged to me to become a productive citizen who 
is a valuable contributor to society. I think about these programs and 
the impact on my life and how my mother and I sat in an office filing 
out the FAFSA Federal Student Aid form and she had never planted a foot 
in a university office before this meeting. I have finished all the 
requirements for my Ph.D. in chemistry and will be defending my 
dissertation related to nanoscience shortly. I believe I was worth the 
investment of the TRIO programs; it provided me with awareness and 
empowerment that a lonely child going up on the wrong side of the track 
did not have access to. Statistically speaking, I should not be where I 
am today but I currently teach chemistry at the University of Northern 
Iowa. TRIO has equipped me with the tools of being a change agent and 
it an investment in America's future.
          * * * * * * *
    To Whom It May Concern: What does Upward Bound mean to me? I Joined 
Upward Bound as a sophomore in high school because my best friend was 
in the program. I entered the program with no job, no money, and the 
usual ``I know it all'' attitude of a 16 year-old, but I left with so 
much more.
    I think all teenagers feel like something is missing in their 
lives. We're trapped in a mental purgatory between childhood and 
adulthood, seeking something for ourselves, searching for our potential 
and the kind of adults we wish to become.
    We enter into high school hoping we'll find what we are looking 
for. We join sports, music, drama, and unfortunately sometimes we turn 
to drugs or gangs. But we're all looking for our niche, somewhere that 
we will belong.
    I think that some of the problem is that although we have a school 
full of people trying to prepare us for our adulthood and our future, 
they simply can't do everything for all of their students which we 
might need. TRIO Programs were able to provide mentors for me, people 
who were in places that seem intangible to most students who aren't in 
the program. We got a glimpse of what our futures could hold for us and 
we were shown that there were people who went through the same things 
that we did, and made it. Upward Bound showed us that we all had this 
potential, the abilities to succeed as well. This is something that 
only they could have provided us, and something that was invaluable to 
my success and undoubtedly the others around us.
    Upward Bound provides us a place where friendships can be fostered 
with peers who also value their education and the opportunities that it 
will provide. Not only that, but they provide it for those who need it 
the most--those who often aren't able to have their parents around them 
enough to mentor them because they might be working two jobs to support 
their family. Tutorials give us a safe and stress-free environment that 
we can escape to for a couple of hours to study, and the tutors are 
people that are often going to college who can be related to and looked 
up to as a role model and someone that we can gain advice from. Best of 
all, it was free.
    Growing up, I always thought I knew everything because I was 
intelligent, but my senior year of high school hit me hard. For once in 
my life, I didn't know what I was doing or where I wanted to go in 
life. Upward Bound helped me figure out that a 4-year university was 
the best place for me to go, but that presented a new problem. My 
parents aren't able to work much since they're both disabled, and I 
couldn't find a job at all. How would we be able to pay for even one 
year of college, let alone four and which one would I pick?
    Upward Bound helped me figure that out too. They helped me find and 
apply to scholarships, took me on college tours, and helped me fill out 
my FAFSA, which I hadn't even heard of up until that point. They paid 
for my application fees, which I certainly wouldn't have been able to 
do, and I now had valuable references that could write me letters of 
recommendation from the program. They motivated me, supported me, and 
wouldn't accept anything short of excellence.
    Upward Bound wasn't just a program that helped me graduate from 
high school and move on to college. It was a program that actually 
cared about me and asked for nothing in return, which is something that 
you don't encounter very often anymore. Upward bound showed me that 
doing the bare minimum wasn't acceptable--I had to exceed even my own 
standards. So when I was asked to write this, there really wasn't even 
a choice for me to make. How could I not, when Upward Bound taught me 
how to excel in my education, and to accept no one's limitations for my 
achievement?
    Upward Bound was my teacher, my mentor, my counselor, my friend, 
and my parent all rolled up in one, and Upward Bound showed me how to 
not only be a student, but a resilient woman who will never let anyone 
tell her she can't do or be something ever again. That is what Upward 
Bound means to me.
            Thank you.
                                       Krystal M. Robinson,
                       Freshman at the University of Northern Iowa.
          * * * * * * *
    Hello my name is Azline Nelson.
    I started the TRIO programs when I was a sixth grader and have been 
an active participant since that time. I have been an active member in 
talent search, the Classic Upward Bound program and this past summer I 
served as a Tutor-Mentor for the classic upward program.
    During high school I was active in the academic year by 
participating in tutorials and during the summer I was a scholar in the 
summer enrichment Classic Upward Bound program. Without both programs 
to prepare me for life, I do not how I would have been successful in 
any of my endeavors. These programs taught me the importance of time 
management, effective communication, how to seek resources, networking 
and how to follow up once you have interacted with someone and most 
importantly pointed me in the right direction to receive my fantastic 
scholarship.
    I am in recognition of the Gates Millennium Scholarship and I would 
not be able to say that without the aid of TRIO programs. They have 
groomed me for success better than any program that I have ever been a 
part of. They have encouraged me to stay active with community service, 
active on campus and helped to enroll me in leadership training to 
develop my interpersonal skills. This program has helped tremendously 
to make me the excellent scholar that I am today.
    I am a sophomore at Spelman College on the Dean's List with a grade 
point average of 3.7. I currently serve as the Educational Advancement 
Foundation Chair for Alpha Kappa Alpha Sorority Incorporated and I am 
the treasury of Toastmaster International. Without TRIO programs I 
would not be able to claim recognition to any of the accomplishments 
listed above.
    The faculties hired for TRIO programs truly care about the best 
interests of the students are they are there to encourage and provide 
scholars with the necessary skills to become successful in life. They 
possibilities are endless with the aid of TRIO programs and they 
deserve to be the premier programs that students have access to. They 
provide all the necessary resources to take scholars anywhere they 
aspire. Please keep funding for all TRIO programs to help ensure the 
success of more students and produce more individuals similar to me.
          * * * * * * *
                        UNI Classic Upward Bound
    UNI Classic Upward Bound (CUB) is an essential entity to the 
community it serves, not only does this program develop collaborative 
relationships among members of the community it services, but it also 
provides great opportunities for many. CUB is designed to improve the 
life of the target population (low-income and first-generation 
students) by allowing them to maintain valuable life skills in the 
areas of, but not limited to networking, academics, and community 
service opportunities. This program is essential to the advancement of 
the many students it serves; CUB is one of the few positive outlets for 
children, especially low-income and first-generation students, in Black 
Hawk County. CUB is committed to building long-lasting relationship 
with the students; this does not only serve a valuable purpose in their 
immediate lives, but also in their future endeavors.
    Neither of my parents went to college, my father did not have the 
opportunity of graduating high school. Yet they instilled in me the 
importance of going to college and getting a good education so that I 
would not have to work hard and live paycheck to paycheck as they did. 
Although they wanted the best for me they did not know how to ensure 
that I obtained the necessary tools to be successful, I did not either, 
lucky for me there was a group of committed people who reached out to 
me and gave me what my parents could not provide. I was first enrolled 
in the CUB program after the completion of my eighth grade year in the 
summer of 1999, as a student transitioning into high school. I stayed 
in contact with the wonderful Director Wilfred M. Johnson over the 
years, even while obtaining my BA from the University of Iowa. As of 
December 2010, I returned to the Waterloo area where I currently work 
as a tutor/mentor for the program. I am taking this moment to give to 
others what was given to me in hopes of inspiring them and giving them 
the motivation that I had to be the successful young woman that I am 
today.
    The program continues to teach me beneficial concepts, while I was 
in the program I learned things such as how to enhance my academic 
skills and peer relationships, now as a post-program participator and 
tutor/mentor I am learning how to be a positive influence to the 
younger generation. I am also learning how to break the ice with what 
we call ``little people'' and also how to make learning interesting so 
they actually absorb the information that is given to them. With these 
students (low-income or first-generation) their parents are usually 
working and do not have the time and/or knowledge to ensure that their 
homework is not only getting done and turned in, but that they 
understand the concepts of their academic work. CUB provides great 
academic support and is a positive force within the community.
            Sincerely,
                                                        Keyah Levy.
          * * * * * * *
                                                  January 31, 2011.
    To Whom It May Concern: I am writing this letter to express concern 
for the Classic Upward Bound (CUB) Program at the University of 
Northern Iowa. I was exposed in the CUB program for the first time, in 
the summer of 1995. A friend of mine mentioned it to me, as she knew 
some people in the program, and we did not know the program specifics, 
but we did know that it was a program we wanted to be in! We would get 
to spend the summers on UNI's campus away from our parents, and we 
would get a weekly stipend. We did not know anything else that we would 
have to do, but we were sold.
    It was during the 1995-1996 academic school year that I applied for 
and was accepted to the program, and regardless of my motivation for 
enrolling, the program has had a profound impact on my life. From the 
first time that I met the program director, Mickye Johnson, I knew that 
he would change me, and help mold me into a more productive member of 
society. My first summer in the program was the first time I had ever 
been away from home for so long, but it was such a wonderful 
opportunity for growth for me, Not only was I challenged academically, 
but I was also challenged to grow personally, and molded into a person 
who aspired to not only understand what was going on around me, but to 
impact that. I started my high school ``career'' a step ahead because 
now I knew some people that would attend Waterloo East High School with 
me that I had not previously known, and I had an academic advantage as 
I had already been exposed to some of the course material during the 
summer instructional program.
    That was one of my first experiences with the CUB program, but it 
had such a long lasting impact on my life. I still look to the staff of 
the program for inspiration and mentorship in my professional life. I 
am currently employed by Hawkeye Community College as an Academic/
Career Advising Coordinator. A position that I know was motivated by my 
early exposure to college through the Classic Upward Bound Program. At 
that time, I was sure I was going to go to medical school and become a 
doctor. At some point, my desire to help others in a medical capacity 
changed, and I knew my passion for education and helping others reach 
their educational goals would be my life passion.
    I am a true testament of what the Classic Upward Bound program can 
do to help a student reach their educational potential. I come from a 
single-parent, low-income, first generation home. My mother raised four 
children by herself while working a full-time job, and we were involved 
with the CUB program, and have had some experience with college. I hold 
a bachelor's degree in psychology, and a master's degree in social 
work, and am in the process of pursuing a Ph.D. in educational 
leadership, my younger siblings are all currently enrolled in 
educational programs. My younger brother is pursuing an AAS in 
Automotive Technology, my youngest brother a BA in business from the 
University of Northern Iowa, and my sister is currently enrolled in 
medical school at the University of North Carolina. My mother instilled 
in us all a respect for education, and expected that we would all 
attend college, but the Classic Upward Bound program showed us that 
going to college could be a reality, and helped us to make those dreams 
a reality. It was that we would need financial support in order to 
attend college. They helped us to search and apply for scholarships, 
and to fill out the FAFSA which my mother still, after all these years, 
still likes a little assistance to fill out.
    Through the Classic Upward Bound program, I was also exposed to 
educational opportunities offered by other TRIO programs. I was a 
participant in the Educational Talent Search program, and exposed some 
of my friends who could not get into the CUB program to opportunities 
available through this program. I was also a summer participant in the 
Math/Science Upward Bound program, which was yet another growth 
opportunity given to me by the program as I left the Waterloo/Cedar 
Falls area, and my comfort zone. Once I graduated from college, during 
my bridge year, I was connected to the Student Support Services 
program, and the Educational Opportunity Center, which helped ease my 
transition from high school to college. These programs were able to 
provide me support and opportunities for growth during my college 
years, but the support that I received from the programs did not stop 
once I obtained my BA. I also was allowed to do a practicum for my 
Master's program with the CUB program, which exposed me to a lot of the 
background information that as a participant you may not understand, 
and also, I believe, helped me to get my first full-time job. The first 
career opportunity that I was offered upon graduation was with the 
Student Support Services at Hawkeye Community College. I know that my 
first-hand experience with the program, as well as the grooming that I 
received during my practicum contributed to this opportunity.
    The Classic Upward Bound program at the University of Northern Iowa 
has had a PROFOUND impact on my life. I fully support this program, and 
pray that students are offered the opportunities and experiences that I 
was exposed to for years to come. Thank you for taking the time to read 
this letter, and thanking you in advance for your consideration.
            Sincerely,
                                                  Leah Clark, LMSW.
          * * * * * * *
    My name is Robert Abben. I have been a part of the Classic Upward 
Bound Program for a total of ten years now. When I heard that funding 
for the program was going to be cut, I felt the need as a future 
educator to do my part to ensure that the program remains in place. 
This is necessary because countless individuals deserve the same 
opportunity that the program provided me 4 short years ago.
    The Program has been so beneficial to me that it troubles me to 
know where to begin to tell the story of how the program has influenced 
me. The truth is I feel now that the program played a great role in 
making me the person that I am today. I entered the program the spring 
semester of my freshman year of high school in 2001 as a first 
generation college student. I came in just like every other student. I 
was young, immature, smart-mouthed, and thought I owned the world. Soon 
after I entered the program, Mr. Johnson cracked his whip. Some may be 
wondering exactly what whip I am referring to and that whip is the one 
that turns more than 80 percent of those smart-mouthed, know-it-all 
students into young, college educated adults. Over the years, as we 
have grown up, some of us have gone into business, counseling, other of 
us like myself, have gone on to become educators. We will be taking 
what Upward Bound has instilled in us and pass it on for generations to 
come in our classrooms throughout the United States. Other participants 
have even gone on to work in the White House.
    Without this program, many of us would have never thought twice 
about a college education. The truth of it is, ask any educator and 
they will tell you, parental involvement is lacking in today's society. 
Many parents or guardians are not actively involved in their child's 
education. This may not be their intent but they may not have a choice. 
They may have to work two jobs so that their child can eat. 
Unfortunately, food tends to come before education. The Upward Bound 
Program is exactly what students in these types of situations need. Mr 
Johnson, in some respects, help raised me and with the help of my 
parents and all of the rest of the Upward Bound staff, I am where I am 
today. We can not take this away from future generations. If students 
with so much potential are allowed to slip through the cracks in the 
education system and do not have the support of the program, we as 
educators would be doing our students and society a disservice. The 
next doctor or Johnny Cockerin could be passed by because they did not 
believe they were smart enough or financially able to attend college. 
Upward Bound may be the only thing telling them otherwise.
    Sure, if some students are asked what they think of the program, 
they may say it is terrible. There are so many rules, we can not have 
any fun. Also, it is so hot in those dorms. Who wants to go to school 
in the summertime? I will be the first to say I thought the same thing 
when I was younger. However, this really is one of those times when 
individuals do not realize what a great resource they have in front of 
them until it is gone. So please take my advice as a former student and 
future educator and please do not take the only chance at an education 
that some of our future students may have away from them.
          * * * * * * *
    To Whom It May Concern: I am writing this letter on behalf of the 
esteemed ``Upward Bound'' program. Created in 1968, Upward Bound is a 
vessel used to fight the ``war on poverty.'' Since inception this 
program has helped thousands of students from disadvantaged 
backgrounds, including myself. Having a father who dropped out of 
school in tenth grade and a mother who obtained only a high school 
diploma, college was not the topic of discussion within my household. 
My parents were more concerned or worried about paying bills.
    Shocking as it may seem, UNI's Upward Bound program introduced the 
option of college to me for the first time. The tutorial programs they 
host gave me structure and provided help with challenging subjects, 
which allowed me to keep a high grade point average. The summer program 
was the highlight of my experience; although strict and homework 
ridden, the college classes we attended was great preparation for 
attending a university, such as UNI. Because of Upward Bound and the 
mentorship of Wilfred ``Mickye'' Johnson, last May I graduated from UNI 
with a 3.4 grade point average. I am currently headed into my second 
year of graduate school here at UNI, and teaching oral communication to 
undergraduate students.
    Without the opportunity of the Upward Bound program, I'm sure this 
story would have ended differently. The opportunity this program 
afforded me has more rewarding benefits than just educational. I am the 
first person in my family to graduate from college. As I will soon 
start my doctorial program, my children are being challenged to further 
their education. I am also in the process of buying my first home a 
feat my mother or father never achieved. For this I am forever indebted 
to this program. In conclusion, I would like to thank Wilfred 
``Mickye'' Johnson, Upward Bound (TRIO), and the University of Northern 
Iowa for providing me and many others with an opportunity at success.
            Sincerely,
                                                      Sherman Wise.
          * * * * * * *
    To Whom It May Concern: I am a proud mother of three. I am a lower 
middle class citizen and my son is a high school graduate and the first 
generation to go to college.
    My son was in the Upward Bound Program. I believe my son wouldn't 
be where he is today without having the opportunity to be a part of 
this program. The program has taught him to be a leader in his personal 
growth and commitment to excellence. The tutorials helped him stay 
focused and the summer program gave him the taste of college life, 
which helped motivate him to go to college. Also the program is very 
informative and helpful when filling out scholarships, etc. Without 
this guidance, my son would not of had the recourses available for him 
to afford to go to college and further his education.
    Where would my son be without the TRIO program? Answer. NOT as far 
as he is today.
    The TRIO Program is a major asset to our society and economy as a 
whole. Without the commitment and recourses I believe some kids get 
lost in the shuffle. The children of today are ``the future'' and we 
must empower them to do so.
            Thank you for your time,
                                                     Teresa Luloff.

    Senator Harkin. Thank you, but before we go further, I 
understand I missed a couple of people here. I may have missed 
some others. State Representative Anesa Kajtazovic is here. 
Yes, welcome. Thank you. A newly elected State representative.
    And State Representative Deb Berry is also here. Thank you 
for being here, both of you, today.
    If I missed anyone, would you please let my staff know--I 
have got staff back there--so I can properly recognize you.
    Senator Dotzler, welcome. You hold very important positions 
in the State legislature regarding the very issues we are 
talking about. So, again, thank you for that leadership, and 
welcome here. And please proceed.

STATEMENT OF WILLIAM DOTZLER, IOWA STATE SENATOR, 11th 
            DISTRICT
    Mr. Dotzler. Well, thank you, Senator Harkin, for this 
opportunity to speak to you today on Federal issues that have a 
direct effect on Iowa and its citizens.
    As chair of the Senate Economic Development Appropriations 
Subcommittee, I have the opportunity to hear from many of 
Iowa's top CEOs, and their message is clear and consistent. 
Iowa's economy is shifting farther away from private sector 
jobs requiring low skills to a highly specialized, innovation-
based economy that requires advanced skills and competencies.
    A recent report from ACT predicts that in 3 short years, 
nearly 45 percent of all jobs will require at least middle 
skills, which is additional training, but not necessarily a 4-
year degree. Unfortunately, only 25 percent will have those 
skills needed.
    Iowa lost approximately 55,000 jobs during this recession, 
of which 37,000 came from the manufacturing sector. These 
individuals have been identified as needing significant skill 
upgrades and retraining to secure self-sustaining employment 
for the years to come.
    Although Iowa's current unemployment rate is lower than the 
national average at 6.3 percent, the data for these unemployed 
workers points to significant challenges. Fourteen percent of 
the customers coming into Iowa Workforce Development offices do 
not have a GED. Fifty-seven percent are male, reflective of the 
significant job loss in manufacturing and construction.
    Fourteen percent are older than the age of 55 years. Only 7 
percent have a college degree. Eighty-seven percent have 
qualified for adult services, and 29 percent qualify for 
dislocated worker services.
    If we are to be successful in moving workers from 
unemployment to work, enhanced services are clearly needed, and 
increased funding is crucial. The Workforce Investment Act 
(WIA) provides opportunities for Iowa's disadvantaged youth, 
adults, and dislocated workers for retraining and enhanced 
worker services.
    Iowa integrates its efforts with other programs and 
services at its One-Stop centers to greatly increase the number 
of individuals served in adult and dislocated worker programs. 
For Iowa's 2010 budget year, wage record data for adults 
exiting the program indicates that for each $1 of WIA resources 
spent, there is an increase of $77.59 in participant earnings 
for the next 12 months after completing services. For youth, it 
was $2.25 per $1 spent. And for the dislocated worker 
population, participant earnings were $11.44 for each $1 
invested.
    Senator Harkin, WIA efforts clearly have positive results, 
but Federal funding levels are too low to meet the need. Many 
unemployed workers are on a waiting list for WIA funded 
training opportunities. And on a statewide average, a year's 
training allocation lasts only a little more than 6 months. 
When larger mass layoffs occur, the State must rely on the 
national emergency grants to meet the needs of workers, all of 
which results in longer periods of unemployment before services 
are delivered.
    And often, workers run out of benefits before training 
dollars become available, creating a new set of barriers for 
the worker to overcome. We are working with local employers and 
our community college to develop State short-term certified 
training programs to deliver skills in demand to unemployed and 
underemployed workers.
    A pilot program at Kirkwood Community College has already 
helped 350 workers complete certificate programs and fill jobs 
with those needed skills at an average cost of only $1,000 per 
student. Timely and adequate WIA funding can remove barriers 
that prevent struggling Iowans from helping themselves and, at 
the same time, help many Iowa businesses fill their need for 
skilled workers that is currently preventing them from 
expanding.
    I recently had the opportunity to speak with an unemployed 
mother, Donnie Stanley, who entered Kirkwood's pilot program. 
Three months later, she was a certified nurse assistant. She 
now works full time and supports her family and plans to keep 
upgrading her skills. Donnie's success story is what the act is 
all about. Investment in our workforce equals quality 
employment.
    Senator Harkin, in my remaining few minutes, I would like 
to speak briefly about the importance of maintaining and 
continuing to improve the Affordable Health Act. After hearing 
from hundreds of Iowans and business owners, it is clear to me 
that any successful attempt to nullify health reform would be a 
major blow to our State. We cannot afford to eliminate the tax 
credits that are helping to make health insurance more 
affordable for small businesses, and in recent surveys that I 
and my fellow senators have sent out, employers identified 
healthcare costs as a major limiting factor in job growth.
    As a result, we have proposed to add an additional 25 
percent State tax credit to the Federal credits that are 
already helping to make it more affordable for small business 
to provide insurance for new and existing employees. The 
Affordable Care Act plays an important role for families' 
financial security and removes the fear of insurance companies 
raising premiums by double digits with no recourse or 
accountability.
    A personal friend of mine who is on a limited income had 
her rates increase 24 percent last year alone. Importantly, it 
provides workers with the freedom to change their job without 
losing coverage.
    Last fall, my brother-in-law was laid off from his job 
through no fault of his own and couldn't afford to continue his 
insurance. He found work with a new employer, and while waiting 
for his probationary period to end and his new insurance to 
take effect, he had a heart attack. His hospital bill is now 
close to $100,000.
    To make things worse, he was then financially forced to 
wait for his insurance to take effect with his new employer 
before having a second procedure. Luckily, his lack of 
insurance didn't cost him his life.
    Finally, Senator, I believe that the competitive bidding 
process for durable medical equipment could result in rural 
Iowans having less access to critical supplies of much-needed 
equipment like oxygen tanks. I would like to give you several 
examples, but time does not permit. And I would recommend that 
this be reviewed for possible rural exemptions.
    I thank you for your willingness to hear from Iowans on 
these critical issues and thank you for your service to this 
great State of Iowa and this country.
    Senator Harkin. Well, thank you very much, Senator Dotzler. 
Thanks for great testimony. Appreciate it very much.
    [The statement follows:]

               Prepared Statement of Hon. William Dotzler

    I thank you for this opportunity to speak to you today on Federal 
issues that have a direct effect on Iowa and its citizens.
    As Chair of the Senate Economic Development Appropriations 
Subcommittee, I have the opportunity to hear from many of Iowa's top 
CEOs and their message is clear and consistent.
    Iowa's economy is shifting farther away from private sector jobs 
requiring low skills to an often highly specialized innovation-based 
economy that requires advanced skills and competencies.
    A recent report from ACT predicts that in 3 short years nearly 45 
percent of all jobs will require ``middle skills'' which is additional 
training, but not necessarily a 4-year degree. Unfortunately, only 25 
percent will have the skills needed.
    Iowa lost approximately 55,000 jobs during this recession, of which 
37,000 came from the manufacturing sector. These individuals have been 
identified as needing significant skill upgrades and retraining to 
secure self-sustaining employment for the years to come.
    Although Iowa's current unemployment rate is lower than the 
national average at 6.3 percent, the data for these unemployed workers 
points to significant challenges as follows:
  --14 percent of the customers coming into the IWD offices do not have 
        a GED;
  --57 percent are male, reflective of the significant job loss in 
        manufacturing and construction;
  --14 percent are older than 55 years of age;
  --Only 7 percent have a college degree;
  --87 percent have qualified for Workforce Investment Act (WIA) adult 
        services; and
  --29 percent qualify for WIA dislocated worker services.
    If we are to be successful in moving workers from unemployment to 
work, enhanced services are clearly needed and increased funding is 
crucial.
    The WIA provides opportunities for Iowa's disadvantaged adults, 
youth, and dislocated workers for retraining and enhanced worker 
services.
    Iowa integrates its efforts with other programs and services at its 
one stop centers to greatly increase the number of individuals served 
in adult and dislocated worker programs.
    For Iowa's 2010 budget year, wage record data for adults exiting 
the program indicates that for each $1 of WIA resources spent there was 
an increase of $77.59 in participant earnings over the next 12 months 
after completion of services.
    For youth, it was $2.25 for $1 spent. And, for the dislocated 
worker population, participant earnings were $11.44 per $1 invested.
    Senator Harkin, WIA efforts clearly have positive results. But 
Federal funding levels are too low to meet the need.
    Many unemployed workers are on a waiting list for WIA-funded 
training opportunities. On a statewide average, a year's training 
allocation lasts only a little over 6 months.
    When larger mass layoffs occur, the State must rely on National 
Emergency Grants to meet the needs of workers, all of which results in 
longer periods of unemployment before services are delivered.
    Often workers run out of benefits before training dollars become 
available creating a new set of barriers for the worker to overcome.
    We are working with local employers and our community colleges to 
develop statewide short-term certified training programs to deliver 
skills in demand to unemployed and underemployed workers.
    A pilot program at Kirkwood Community College has already helped 
350 Iowa workers complete certificate programs and fill jobs with those 
needed skills, all at an average cost of only $1,000 per student.
    Timely and adequate WIA funding can remove barriers that prevent 
struggling Iowan's from helping themselves and at the same time help 
many Iowa businesses fill their need for skilled workers that is 
currently preventing them from expanding.
    I recently had the opportunity to speak with an unemployed mother, 
Donnie Stanley, who entered Kirkwood's pilot program. Three months 
later she was a certified nursing assistant. She now works full-time, 
supports her family and plans to keep upgrading her skills.
    Donnie's success story is what the act is about. Investment in Our 
Workforce equals quality employment.
    Senator Harkin, in my remaining few minutes, I would like to speak 
briefly about the importance of maintaining and continuing to improve 
The Affordable Health Care Act.
    After hearing from hundreds of Iowans and business owners, it is 
clear to me that any successful attempt to nullify health reform would 
be a major blow to our State.
    We cannot afford to eliminate the tax credits that are helping to 
make health insurance more affordable for small businesses.
    In recent surveys that I and my fellow Senators have sent out, 
employers have identified healthcare costs as a major limiting factor 
in job growth.
    As a result, we have proposed to add an additional 25 percent State 
tax credit to the Federal credits that are already helping to make it 
more affordable for small businesses to provide insurance for new and 
existing employees.
    The Affordable Care Act plays an important role for families' 
financial security and removes the fear of insurance companies raising 
premiums by double digits with no recourse or accountability.
    A personal friend of mine who is on a limited income had her rates 
increased by 24 percent last year alone.
    Importantly, it provides workers the freedom to change their job 
without losing coverage.
    Last fall my brother-in-law was laid off from his job and couldn't 
afford to continue his insurance. He found work with a new employer and 
while waiting for his probationary period to end and his new insurance 
to take effect, he had a heart attack. His hospital bill is now close 
to $100,000.
    He was then financially forced to wait for his insurance to take 
effect before having a second procedure. Luckily his lack of insurance 
didn't cost him his life.
    Finally Senator, I believe the competitive bidding process for 
durable medical equipment could result in rural Iowan's having less 
access to critical supplies of much needed equipment like oxygen tanks.
    I would like to give you several examples, but time does not 
permit. I recommend that this be reviewed for a possible rural 
exemption.
    I thank you for your willingness to hear from Iowan's on these 
critical issues and thank you for your service to this great State of 
Iowa.

    Senator Harkin. Now we will turn to Jerry Nelson, field 
office manager of the Social Security Administration.
    Jerry, again, thanks for all your great work, and your 
testimony is part of the record. Please proceed.

STATEMENT OF JERRY NELSON, FIELD OFFICE MANAGER, SOCIAL 
            SECURITY ADMINISTRATION, WATERLOO, IOWA
    Mr. Nelson. Great, thank you.
    Chairman Harkin, thank you for the opportunity to discuss 
the importance of fully funding the administrative budget of 
Social Security.
    I am Jerry Nelson. I have been a manager for 7 years here 
in Waterloo. I have 23 years of service with the Social 
Security Administration, and I am very fortunate to play a role 
in a program that has touched the lives of every American and 
is one of the most successful programs ever created.
    The current economic downturn and the aging baby boomer 
population means that more Americans are turning to us than 
ever before. Fortunately, Congress has provided us with the 
resources needed to improve service to the American people, and 
we have made good use of those resources. Without a doubt, 
sustained, adequate, and timely funding for our agency makes a 
difference in the Americans' lives.
    Let me illustrate this importance by just looking at a 
snapshot of my Waterloo servicing area. We serve 50,000 retired 
and disabled workers, their families, as well as survivors of 
deceased workers. We also serve 4,500 Supplemental Security 
Income (SSI) beneficiaries. We receive an average of 480 
visitors every week and answer 150 phone calls every day.
    Like every other field office in the United States, we see 
the result of the current economy and the aging of our 
population on a daily basis. In my office, claims for Social 
Security and SSI have increased significantly over the last 2 
years. Additional funding and expanded use of technology has 
helped us cope with the increase in these workloads.
    We have been able to add two additional employees in the 
last 2 years. Additional staffing and information technology 
advances have helped us provide better service. Your 
constituents have a shorter waiting time in our office at this 
time than they did 2 years ago. We have been able to place more 
of an emphasis on answering the telephone.
    Social Security employees are proud as far as how far we 
have come over the last 2 years, and we do not want to lose 
this momentum. Currently, Social Security is operating under a 
continuing resolution. As a result, the agency has implemented 
a hiring freeze, which is reversing the staffing gains that I 
mentioned.
    This year, I have already lost one person to retirement 
that I cannot replace, and this will have an impact on the 
service we deliver. Nearly 20 percent of my staff is eligible 
to retire today, and every loss that I cannot replace will 
seriously damage our ability to take care of the people in our 
district.
    I am hopeful the agency will not be forced to impose 
furlough days, which could bring dire consequences to the 
people we serve. One furlough day would translate into 100 
visitors not seen, 40 claims and redeterminations not done, and 
150 phone calls left unanswered.
    As a result of the furlough, I believe we would see an 
increase in processing time for claims and other actions, 
including an increase in wait times. Your constituents would 
experience delays in scheduling appointments, getting benefit 
verifications, obtaining replacement Social Security cards.
    Just 1 furlough day would be devastating to the claimant 
who may need a critical or immediate payment. We are asking 
America's most vulnerable citizens to wait an extra day or 
perhaps longer to get the service they so desperately need.
    To better appreciate the vital services we provide, I need 
to look no further than a family that our office recently 
assisted. A social worker from the University of Iowa Hospital 
brought to our attention a mother and a new baby, explaining 
the mother didn't even have a coat or shoes for the cold 
weather. The situation looked so desperate that the nurses 
pooled together their own money to buy some clothes.
    My staff immediately took an SSI application for this baby. 
Based on low birth weight, we will be able to pay benefits 
quickly. I am sure you can see why it is vitally important that 
we get this child into current pay status as soon as he is 
released from the hospital, and we will make sure that happens.
    On behalf of that family and the thousands of others we 
serve, I thank you for your continued support. As a field 
office manager working on the front line in the State of Iowa, 
I am proud of the real and meaningful progress we have made 
over the last 2 years, and I am proud to testify of the 
personal commitment of the 24 employees in the Waterloo office, 
as they perform outstanding public service every day.
    Thank you, sir.
    Senator Harkin. Thank you very much, Mr. Nelson. That is 
wonderful. Thank you.
    [The statement follows:]

                   Prepared Statement of Jerry Nelson

    Chairman Harkin: Thank you for this opportunity to discuss the 
importance of fully funding Social Security's administrative budget for 
fiscal year 2011. I am Jerry Nelson, the manager of the Waterloo Social 
Security office, which is staffed by 24 committed and talented public 
servants. I feel very fortunate to play a role in administering one of 
the most successful Government programs ever created in our country and 
to work for an agency that touches the lives of nearly every American.
    The recent economic downturn and the aging of the baby boomers have 
caused more Americans to turn to us more than ever before. In 
particular, claims for retirement and disability benefits have soared 
in the last few years. Fortunately, Congress has understood these 
challenges and provided us with the resources we needed to handle this 
surge in our work, which directly supports the national economy.
    With the additional funding Congress provided over the last 3 years 
and significant increases in employee productivity, we have made 
tremendous progress to enhance service to the public, reduce the 
hearings backlog, complete hundreds of thousands more claims, and 
reduce the 1-800 number wait times and busy signals. Our 
accomplishments are particularly remarkable considering the continued 
rise in benefit applications and the furloughs of disability 
determination services (DDS) employees in many States. Fortunately, the 
Iowa furlough of DDS employees ended in June 2010, but these furloughs 
cost almost $213,000 in administrative funding to the State of Iowa as 
of the end of calendar year 2010, with more than $85,000 in delayed 
disability benefits.
    Eliminating the hearings backlog continues to be our number one 
priority, and we have made progress in reducing both the number of 
pending hearings and the amount of time a claimant must wait for a 
hearing decision. We ended fiscal year 2010 with just more than 700,000 
pending hearings nationwide--the lowest level in 5 years. At its peak, 
it took an average of 18 months for a hearing decision. As of January 
2011, it took more than a year.
    We have made significant improvements in other areas of 
responsibility as well. Even though our offices received a record 
number of new claims, our employees worked hard to keep the number of 
pending initial disability cases down. We ended fiscal year 2010 with 
initial disability claims pending at an all-time high of more than 
842,000 cases. However, the additional funding we received from 
Congress helped us keep this number well below the 1 million cases that 
we previously projected for the end of fiscal year 2010. In the first 4 
months of fiscal year 2011, we have already decreased the number of 
pending initial disability claims to 793,049. As importantly, the 
accuracy of the disability decisions made by our DDSs reached 98.1 
percent in fiscal year 2010--the highest level in over a decade. 
Waiting times in our field offices dropped, and we achieved our best 
performance on our 1-800 number since we began collecting data nearly a 
decade ago.
    These improvements are attributable to increased staffing in our 
offices across the country. We are grateful to Congress for enabling us 
to hire additional staff and for its continued support.
    Claims for benefits are not the only workloads in our field 
offices. Each year we handle a large number of activities not directly 
related to claims for benefits. Nationwide, last year our field offices 
processed more than 18 million requests for new and replacement social 
security cards; we served thousands of people each day who needed to 
report changes of address, changes in direct deposit information, and 
other issues that could affect their benefit payments.
    We also handle a number of workloads involving programs 
administered by other agencies. For example, field offices play a 
significant role in helping people with their Medicare benefits and 
often work with State and local agencies regarding Medicaid and SNAP 
(formerly known as food stamps). We work hard to be good stewards of 
the programs entrusted to us by ensuring that only eligible individuals 
receive benefits and that their benefits are in the correct amount. One 
way we do this is by conducting continuing disability reviews (CDRs) 
and Supplemental Security Income (SSI) redeterminations. CDRs are 
reviews of disability beneficiaries' medical conditions and 
redeterminations are reviews of nonmedical factors of eligibility, such 
as income and resources. This very significant workload, in terms of 
both importance and effort, supports the President's multi-year plan to 
reduce improper payments.
    The President's fiscal year 2011 budget includes $38 million in 
additional resources for CDRs and SSI redeterminations. This fiscal 
year 2011 level represents a 5 percent increase more than the fiscal 
year 2010 level. We plan to conduct 360,000 full medical CDRs and 
2,422,000 redeterminations. We estimate that every $1 spent on medical 
CDRs yields at least $10 in lifetime Social Security, Medicare, and 
Medicaid savings, and every $1 spent on SSI redeterminations yields 
more than $8 in Social Security and Medicaid savings over 10 years. If 
we meet our fiscal year 2011 program integrity goals for medical CDRs 
and redeterminations, the estimated program savings over the 10-year 
period through fiscal year 2020 amount to more than $7 billion, 
including savings to Medicare and Medicaid.
    Let me illustrate the importance of this additional funding at the 
local level. The service area for my Waterloo, Iowa office covers more 
than 4,000 square miles; it is mainly farmland. We serve more than 
50,000 retired and disabled workers and their families, as well as 
survivors of deceased workers. We also serve more than 4,500 SSI 
recipients.
    Like every other field office in the United States, we see daily 
the impact of the current economy and the aging of our population. In 
my office, initial claims for Social Security and SSI benefits 
increased significantly over the past few fiscal years.
    With additional funds, we were able to add two new employees who 
have undoubtedly helped us provide better service. We receive an 
average of 480 visitors a week. People walking into our office without 
an appointment waited, on average, less than 9 minutes in fiscal year 
2008; at the end of fiscal year 2010 they waited less than 7 minutes. 
Our wait times are far below the national average of about 21 minutes. 
We also take an average of 150 phone calls each day--and on very busy 
days we may answer upwards of 200 calls.
    Our local hearing office in West Des Moines has also made great 
progress. At the end of fiscal year 2008, we had more than 4,000 
pending hearings. As of December 2010, we reduced the number of pending 
hearings to 3,500 cases. At the same time, we cut the average time it 
takes to make a hearing decision from 539 days to 299 days--a nearly 45 
percent reduction in waiting time.
    We have worked hard to accomplish all of these gains. Our employees 
are proud of how far we have come over the last 2 years, and we do not 
want to lose our momentum. To help ensure that we can continue this 
significant progress, we urge Congress to act swiftly to enact the 
President's fiscal year 2011 budget. Currently, like the rest of the 
Government, we are operating under a continuing resolution. As a 
result, we had to implement a hiring freeze. The freeze affects us all; 
so far this year, one member of my staff has retired. I cannot replace 
him. This reduction in staffing will affect the way we serve the 
public.
    I worry that the agency will be forced to impose furlough days if 
our budget is cut. Furloughs would be devastating to both the public 
that depends on us and to our employees. While a furlough would save 
the Government about $5,600 per day in employee salaries at the 
Waterloo office, the human cost would far outweigh any savings. In my 
office, 1 furlough day would translate to 100 visitors not seen, 32 
claims not taken, 150 phone calls unanswered, and 7 redeterminations 
not done. Extended to the national level, this would mean that about 
182,000 daily visitors would not be seen, about 33,000 claims would not 
be taken, and almost 10,000 redeterminations would not be completed.
    As people return to conduct business on days the office is open, 
walk-in office visitors would have longer waits to see a 
representative. Members of the public would also have to wait longer 
for scheduled appointments. Claims processing time would increase. A 
furlough day could be devastating to someone in a dire need situation 
desperate for a critical or immediate payment, or for a beneficiary 
needing verification information to qualify for food stamps, to obtain 
housing, or to get Medicaid.
    We thank you for your continued support. With enactment of the 
President's 2011 budget, your oversight, and our hard work, I believe 
we can give the American public the level of service they expect and 
deserve. As a field office manager working on the front line in the 
State of Iowa, I am proud of the real and meaningful progress we have 
made in the last 3 years despite challenges presented by the economy, 
and I am proud to testify to the personal commitment of our employees 
as they go about our mission. Thank you.

    Senator Harkin. Now we will turn to Kim Young-Kent, 
executive director of Tri-County Child and Family.

STATEMENT OF KIM YOUNG-KENT, EXECUTIVE DIRECTOR, TRI-
            COUNTY CHILD AND FAMILY DEVELOPMENT 
            COUNCIL, WATERLOO, IOWA
    Ms. Young-Kent. Hello. Thank you, Senator, for giving me 
the opportunity to testify today.
    In 1993, you were in town, and we had a very brief 
conversation, and it went like this. ``Kim, what are you doing 
in order to expand the Head Start program?'' And I said, 
``Well, I am working on infrastructure and capacity.'' And you 
said, ``You better do more.''
    And so, in 1993, we were serving 360 children in a part-
day, part-year program. Today, we are serving 568, and 312 in 
Early Head Start. So thank you for that challenge. I think we 
stepped up to the plate.
    Senator Harkin. Good for you.
    Ms. Young-Kent. But I am still only serving 46 percent of 
the children eligible for services in Early Head Start. We have 
a current waiting list of 96 children waiting to get into 
services.
    On behalf of my 1,600 colleagues running Head Start 
agencies across the country, we would like to respectfully 
request that Congress maintain the current investment in the 
expansion of Head Start and Early Head Start and include the 
ARRA funding that was provided for us so we can continue those 
expanded slots.
    Locally, we were able to add 72 slots to Early Head Start 
services and added those services in both Buchanan and Grundy 
Counties where they previously did not have any.
    In Iowa, 8,191 children and their families are funded to 
receive services in Head Start and Early Head Start. In 2010, 
we actually provided services to 9,246 children because we kept 
the doors open and fully enrolled every single day. More than 
64 percent of our families served in the State of Iowa are 
working poor.
    Since the 2007 reauthorization of Head Start, quality 
improvements have eagerly been embraced and are being 
implemented as quickly as possible. Services to homeless 
families have been enhanced, and last year in the State of 
Iowa, 49 percent of the homeless families served acquired 
housing.
    We have also strengthened our partnerships with school 
districts and now serve most of the eligible 4-year-olds in our 
community in the neighborhood schools. This has enhanced the 
transition to school for our children, their parents, and our 
school district. Tri-County meets 100 percent of the teacher 
and assistant teacher and education coordinator requirements in 
the act, even though those requirements don't go into effect 
until 2013.
    In Iowa, 77.5 percent of the classroom teachers and 80 
percent of the assistant teachers meet that requirement now. 
Again, it doesn't go into effect until 2013.
    Additionally, our school readiness statistics continue to 
increase every year as we work with our school districts to 
assure that Head Start enrolled children receive the 
comprehensive services, nutrition, health, including mental 
health, and family support services. When children are fed, 
they learn better. When children have dental needs addressed, 
they are able to focus on their learning.
    Families are able to focus on getting their children to 
school on a regular basis when they know they are working with 
providers who treat them with the respect and dignity deserving 
of folks who love their children and are trying hard to provide 
for them in tough economic times.
    Should the additional ARRA Head Start investment be cut, we 
would have to reduce not only the 72 slots that we added here, 
but possibly more to keep up with the increased costs 
associated with food, rent, and utilities. This would be 
devastating at a time when we have begun to make real gains.
    And yet, we are not serving anywhere near the number of 
families that are eligible for and have need of these services. 
It is in that regard that we ask the subcommittee to maintain 
its investment in the expanded Head Start and Early Head Start 
programs so that we can continue to serve Iowa's vulnerable 
children and families.
    We know what this request means in a time when we all must 
buckle down and do more with less. However, Head Start is a 
smart investment, one of the smartest and most effective we 
make. Study after study has demonstrated that Head Start has 
yielded a cost-benefit ratio of as large as 7-to-1.
    It is also efficient. Compared with other early childhood 
programs that generate high results over investments, one 
Harvard economist calculated that Head Start provides 80 
percent of the benefits of small program, early childhood 
programs--or small model early childhood programs at 60 percent 
of the cost. In other words, we are efficient.
    We are very concerned that without adequate funding here at 
Tri-County, we will have to drop those families from our 
program and lay off dedicated employees, leaving children more 
vulnerable as their parents struggle to find affordable care 
when they are looking for work. The question is whether to best 
make the investment now or pay for it later?
    Dr. James Heckman, a Nobel Laureate in economics at the 
University of Chicago, recommended to the National Committee on 
Fiscal Responsibility and Budget Reform Early Head Start and 
Head Start are programs on which to build and improve, not to 
cut. President Obama has made education an economic imperative 
and supports the idea that education starts at birth with 
families and community.
    In Iowa, Head Start facilitates both, providing low-income 
families with the resources to find and sustain work, learn to 
be better parents, and feel able to leave their children in 
affordable and high-quality care. We ask the subcommittee to 
place a priority on comprehensive early childhood education and 
care through Head Start and Early Head Start, ensuring our 
children start school healthy and ready to learn.
    The 1,041 children at Tri-County, the 7,146 additional 
children in Iowa, and the 991,000 children in the Nation are 
counting on you, sir. Thank you.
    Senator Harkin. Thank you very much, Kim. That is great. 
Eighteen years ago?
    Ms. Young-Kent. Yes.
    Senator Harkin. That is great. That is wonderful.
    [The statement follows:]

                  Prepared Statement of Kim Young-Kent

    Good morning, Mr. Chairman. My name is Kim Young-Kent and I am the 
director of Tri-County Child and Family Development Council in 
Waterloo, Iowa. Thank you for allowing me the opportunity to testify 
before the subcommittee today in support of fiscal year 2011 and 2012 
funding for Head Start. In 1993, I met you at a local event honoring 
you for your work on behalf of children. You asked me if I was 
expanding the Head Start program locally and I told you we were working 
on infrastructure and internal capacity. You said ``Kim, get ready, you 
have to move when you can and you can't afford to be left behind''. In 
1993 we were serving 360 children in part-day, part-year programming. 
Today we are funded to serve 880 children, 568 in Head Start and we are 
the largest provider of Early Head Start services in the State of Iowa, 
serving 312 infants, toddlers, and pregnant women. Thank you for the 
challenge; we responded.
    On behalf of my 1,600 colleagues running Head Start agencies across 
the country, we would like to respectfully request that Congress 
maintain the investment in the expansion of Head Start and Early Head 
Start at the level of $8.2 billion. In Iowa, this would result in:
  --the continuation of services for more than 8,000 children;
  --the continuation of services to the 460 additional children funded 
        through the American Reinvestment and Recovery Act (ARRA) 
        expansion;
  --the retention of more than 46 positions created in the ARRA 
        expansion;
  --the resulting economic impact from increased quality of services to 
        families; and
  --improved wages to attract the quality staff to help us implement 
        improved programming for those 8,000 children and families.
    The Head Start program grantees, nationally, are the largest 
provider of evidence-based early childhood comprehensive care and 
education in country. In 2010, Head Start and Early Head Start dollars 
served nearly 1,000,000 children across the country.
    Our Nation's children face greater obstacles than ever before--at 
the local, national, and international level. More and more children 
fall behind each day, even as our international peers are gaining on us 
in educational and economic outcomes. The science is clear that 
children need responsive care and attention during their earliest 
weeks, months, and years to build cognitive, social, and emotional 
skills necessary for healthy growth and development. High-quality care 
and early childhood education services lead to better academic 
performance and longer stays in school--as well as a plethora of other 
positive outcomes.
    There is abundant evidence that Head Start and Early Head Start can 
help. Head Start produces measurable, long-term results such as school-
readiness, increased high school graduation rates, and reduced needs 
for special education. And the more than 27 million Head Start 
graduates are working every day in our communities to make our country 
and our economy strong. Locally, our communities support Head Start--
more than 20 percent of our funding comes from local sources.
    Here in Iowa, 8,191 children and their families are funded to 
receive services in Head Start and Early Head Start. In 2009-2010, 
9,246 children actually received services as we kept enrollment full 
throughout the program year. Of that total, 5,896 children lived in 
families who were working or attending job training. Only 1,867 
children lived in families receiving TANF benefits. Our families are 
the working poor.
    Let me give you a more detailed picture of how Iowa's Head Start 
children have been served. In 2009-2010, 9,129 children were given 
access to medical care. Of that total, 8,737 children completed all of 
the medical screenings and were up to date on all immunizations, and 
1,346 children had identified health problems, including vision and 
nutrition, corrected. From those, 7,038 children received dental 
preventive care, and 922 of those children received needed dental 
treatment. Strikingly, 1,241 children were identified special needs/
disabilities early and received the necessary services. An encouraging 
3,496 children transitioned to kindergarten reading/writing/ready for 
school.
    Iowa families have benefited in countless ways as well. 8,714 
families received Head Start and Early Head Start services in 2009-
2010--and 6,822 received at least one specialized family service such 
as parenting education, health education, housing assistance, substance 
abuse counseling, and child abuse and neglect services. A total of 539 
homeless families representing 592 children were served, and 49 percent 
of those families acquired housing during the program year. About 64 
percent of the families participated in the WIC program.
    Here in the Tri-County area, we were able to serve 1,041 children 
and families during the 2009-2010 program year. Approximately 78 
percent of our families that qualify for services because they live in 
poverty are working.
    Head Start has been in Black Hawk County since the first summer 
time program in 1965. Services to Buchanan County started in 1968 as 
Head Start expanded to a school year program. In 1989, services began 
in Grundy County and in 1998 Early Head Start began in Black Hawk 
County. We are funded to serve 568 children ages 3 and 4, and thanks to 
ARRA Expansion, 312 Early Head Start children. We are the largest Early 
Head Start program in the State. Since 1965 this agency has served more 
than 20,000 children whose families live in poverty in our three-county 
service area.
    Since the 2007 reauthorization of Head Start, quality improvements 
have been eagerly embraced and are being implemented as quickly as 
possible. Services to homeless families have been enhanced. We have 
also strengthened our partnerships with school districts and now serve 
most of the eligible 4-year-olds in their neighborhood schools. This 
has enhanced the transition to school for our children, parents, and 
the school district. Tri-County Child and Family meets 100 percent of 
the teacher, assistant teacher, and education coordinator education 
requirements outlined in the language, and in all of Iowa, 77.5 percent 
of the classroom teachers, and 80 percent of assistant teachers 
currently meet the requirements--which do not officially go into effect 
until 2013.
    Additionally, our school readiness statistics continue to increase 
every year as we work with the school districts to assure the Head 
Start enrolled children receive the comprehensive services of 
nutrition, health, including mental health and family support services. 
When children are fed they learn better, when children have dental 
needs addressed they are able to focus on their learning. Families are 
able to focus on getting their children to school on a regular basis 
when they know they are working with caretakers who treat them with the 
respect and dignity deserving of folks who love their children and are 
trying hard to provide for them in tough economic times.
    Over the past few years, Congress and the administration have 
prioritized a robust investment in Head Start and Early Head Start 
through both the ARRA and annual appropriations--these dollars have had 
tremendous impact in our community. For Tri-County that means we have 
been able to serve 72 additional children and their families in Early 
Head Start. We expanded to include Early Head Start services in 
Buchanan and Grundy Counties through a partnership with Community 
Action Operation Threshold, and we renovated an Early Head Start center 
to meet Department of Human Services licensing requirements. We used 
local contractors and workers to get that job done. We were able to add 
14 positions and $1,558,561 in economic development to the community. 
Across Iowa $14.1 million was used to construct and renovate centers, 
and serve an additional 460 children, provide training and education to 
staff members, enhance salaries so they are competitive, and recruit 
good teachers to stay on to serve the neediest children.
    Should the additional ARRA Head Start investment be cut, we would 
have to reduce not only the 72 slots here in the Tri-County area, but 
possibly more to keep up with the increased costs associated with food, 
rent, and utilities. This would be devastating at a time when we have 
begun to make real gains.
    Here at Tri-County:
  --69 percent of the children leaving our Head Start program are 
        entering school proficient in national assessments for literacy 
        and language development;
  --66 percent of the children are proficient in math;
  --75 percent are proficient in science;
  --100 percent of our children were up to date on immunizations and 
        100 percent had at least one physical examination within the 
        past 12 months;
  --Our Early Head Start children participated in their well baby 
        checks;
  --81 percent of our 3-4-year-olds were examined by a dentist in our 
        communities;
  --90 percent of our families improved nurturing and attachment 
        between parents and children;
  --92 percent of our families increased their knowledge about child 
        development and parenting;
  --94 percent of our families connected to additional concrete 
        supports within the community--such as health and dental 
        providers, mental health counseling and other agencies; and
  --90 percent of our families maintained or improved healthy family 
        functioning, problem solving, and communication.
    And yet, we are still not serving anywhere near the number of 
families that are eligible for and have need for these services. It is 
in that regard that we ask the subcommittee to maintain its investment 
in the expanded Head Start so that we can continue to serve Iowa's 
vulnerable children and families.
    We know what this request means in a time when we must all buckle 
down and do more with less. However, Head Start is a smart investment--
one of the smartest and most effective we make. Study after study has 
demonstrated that Head Start has yielded a cost-benefit ratio as large 
as $7 to $1.
    It makes our families and children healthier--Head Start parents 
lower Medicaid costs by $198 per family. Head Start has reduced 
mortality rates for 5- to 9-year-olds by as much as 50 percent. Head 
Start programs reduce healthcare costs for employers and individuals 
because Head Start children are less obese, 8 percent more likely to be 
immunized, and 19 to 25 percent less likely to smoke as an adult.
    Head Start graduates are 5 percent more likely to graduate from 
high school--and we know that high school graduates contribute more to 
Federal, State, and local economies than high school dropouts do 
because these graduates earn $9,000 more each year than dropouts. 
Further, Head Start saves our hard-earned tax dollars by decreasing the 
need for children to receive special education services in elementary 
schools.
    For example, data analysis of a recent Montgomery County Public 
Schools (MCPS) evaluation found that a child receiving full-day Head 
Start services requires 38 percent fewer special education services and 
saves taxpayers $700 per child annually. Based on a sample of 195 
students, MCPS saves $129,870 annually by having children in Head Start 
full-day pre-kindergarten versus no MCPS pre-kindergarten.
    States can save the $29,000 per year for each prisoner that it 
incarcerates because Head Start children are 12 percent less likely to 
have been charged with a crime.
    It's also efficient-compared with other early childhood programs 
that have generated high Results Over Investments, one Harvard 
economist calculated that Head Start provides 80 percent of the 
benefits of small model early childhood programs at 60 percent of the 
cost. In other words, Head Start is operated more efficiently than 
these model early childhood programs.
    We are very concerned that without adequate funding here at Tri-
County, we will need to drop families from our programs and lay off 14 
dedicated employees--leaving children more vulnerable as their parents 
struggle to find affordable care when they are looking for work. The 
question is whether it is best to make the investment now, or pay a 
larger price later? Dr. James Heckman, a Nobel Laureate in Economics at 
the University of Chicago, recommended to the National Commission on 
Fiscal Responsibility and Budget Reform, ``Early Head Start and Head 
Start are programs on which to build and improve-not to cut.''
    President Obama has made education an economic imperative and 
supports the idea that education starts at birth with families and 
community. In Iowa, Head Start facilitates both, providing low-income 
families with the resources to find and sustain work, learn to be 
better parents, and feel able to leave their children in affordable and 
high-quality care. We ask the subcommittee to place a priority on 
comprehensive early childhood education and care through Head Start-
ensuring our children start school healthy and ready to learn. The 
1,045 children at Tri-County, the 7,146 children in Iowa and the 
remaining 991,974 children in the Nation are counting on you.

    Senator Harkin. All right. Now we turn to Dr. Durham, 
chancellor of Allen College of Nursing. Dr. Durham.

STATEMENT OF JERRY D. DURHAM, Ph.D., RN, FAAN, 
            CHANCELLOR, ALLEN COLLEGE OF NURSING, 
            WATERLOO, IOWA
    Dr. Durham. Thank you very much, Senator Harkin, for 
inviting me to testify today.
    Allen College is a specialized, regionally accredited 
institution educating nurses and allied health providers. About 
95 percent of our students come from Iowa, and the vast 
majority of them remain in Iowa after they finish their 
degrees.
    About 90 percent of our students are studying for one of 
our three nursing degrees. Allen College is the only 
postsecondary institution in this region preparing 
baccalaureate-level and advanced practice nurses.
    Most, 90 percent of Allen College's students receive 
financial assistance in the form of scholarships, grants, and 
loans. But even with this financial assistance and income from 
employment--and most of our students do work full or part 
time--the 2009-2010 average debt load of our undergraduate 
degree graduates was about $28,700 because loans account for 
the majority, or 72 percent, of their financial assistance.
    As you know, our State and our Nation need more nurses. The 
Bureau of Labor Statistics predicts that the number of nursing 
jobs will grow from about 2.62 million in 2008 to 3.2 million 
in 2018, representing a 22 percent increase because of a 
growing demand for healthcare for our aging baby boomers and 
the influx of new patients expected as a result of healthcare 
reform.
    Because of projected retirements, the total number of 
available nursing jobs may also grow to more than 1 million in 
the future. In Iowa, the surge of nurse retirements is likely 
in the next decade because 45 percent of Iowa's registered 
nurses are now 49 years of age or older. According to the 
Governor's task force report released in March 2008, Iowa may 
have as many as 9,100 unfilled RN positions in 10 years.
    Federal support of Allen College has been critical to our 
success in increasing the number of nurses for Iowa. In 2010, 
Allen College received more than $440,000 in title VIII funds 
to support undergraduate and graduate nursing students and to 
support improvements in our graduate nursing program. These 
funds were made available through an Advanced Nursing Education 
Grant, Advanced Education Nursing Traineeships, the Nurse 
Faculty Loan Program, and scholarships for disadvantaged 
students.
    The Advanced Nursing Education Grant that we received 
allowed us to hire an instructional designer and additional 
faculty and staff to increase our enrollments of students from 
throughout Iowa. In our psychiatric nurse practitioner program, 
for example, we have doubled our enrollment to 16 students as a 
result of this critical support.
    During the 2009-2010 academic year, 35 of 52 graduates from 
our master's program received a Federal nurse traineeship. And 
of those 35, at least 25 are working in medically underserved 
areas or serving underserved populations.
    In past shortages, the Federal Government has provided 
increases in title VIII funds, which have been very effective 
in increasing the supply of nurses. Given the projected 
shortages of registered nurses over the next several years, we 
very much need to invest in the nursing workforce, and the need 
has never been greater.
    And I would like to say on a personal note, after I was 
discharged from the service, I attended nursing school at St. 
Louis University. The Federal Government had given that 
university a relatively small grant to start what was then 
called and is still called an accelerated nursing program. It 
is a 12-month program designed for college graduates.
    It was the first one of its type in the country. It was a 
terribly innovative program. There are now about 200 of those 
programs. So, as a result of that modest investment on the part 
of the Federal Government, a movement started which has spread 
across the United States. Allen College now has the only 
accelerated program in the State of Iowa.
    I would also like to add that I came from a family of seven 
children. I was the youngest of those seven children. I was the 
only child to go to college. And as a result of nurse 
traineeships, I was able to obtain two master's degree in 
nursing.
    I have had a career for 36 years in the field of nursing, 
as a clinician and as an educator. So that investment in me, as 
a first member of my family to graduate from college, I think 
was a wonderful investment on the part of the Federal 
Government.
    So I thank you, Senator, for your service to Iowa and for 
your wonderful service to our Nation. Thank you.
    Senator Harkin. Thank you. Thank you, Dr. Durham.
    That is a great story. That is a great story. Thank you.
    [The statement follows:]

                 Prepared Statement of Jerry D. Durham

    Allen College, with a history dating back to 1925, is a 
specialized, regionally accredited institution educating nurses and 
allied healthcare providers. About 95 percent of Allen College students 
are Iowa residents, and most remain in Iowa to work in healthcare 
following graduation. The College is authorized to confer two health 
sciences degrees and bachelor's (BSN), master's (MSN), and doctoral 
(DNP) degrees in nursing. More than 90 percent of Allen College's 500 
students are studying for a nursing degree. Our nursing programs are 
designed to prepare students for licensure as registered nurses (RNs) 
or to advance their careers following licensure. Allen College is the 
only postsecondary institution in the Cedar Valley region preparing 
baccalaureate-level and advanced practice nurses. The more than 150 
students enrolled in our MSN program are preparing for careers as nurse 
practitioners, educators, or leaders. Our nurse practitioner graduates 
play an increasingly critical role in delivering primary healthcare to 
Iowa's citizens, especially those in medically underserved areas, 
because of a decrease in the number of physicians choosing a primary 
care specialty.
    Most (90 percent) of Allen College's students receive financial 
assistance in the form of scholarships, grants, and loans. Of students 
receiving financial assistance, 88 percent receive at least one type of 
Federal assistance. In addition, the majority of our students work 
full- or part-time in order to pay for the cost of their education. 
Many also have families to support. But even with this financial 
assistance and income from employment, the 2009-2010 average debt load 
of our undergraduate-degree graduates was about $28,700 because loans 
(PLUS, Subsidized/Unsubsidized Stafford, Perkins, Alternative) account 
for the majority (72 percent) of financial aid.
    Currently, RNs comprise the largest group of this Nation's health 
professionals. While the recession has reduced the shortage of RNs in 
Iowa and elsewhere, Bureau of Labor Statistics (BLS) analysts project 
that by 2018 more than 580,000 new jobs for RNs will be created. The 
BLS predicts that the number of nursing jobs will grow from 2.62 
million in 2008 to 3.2 million in 2018, a 22 percent increase because 
of a growing demand for healthcare for aging Baby Boomers and the 
influx of new patients into the system as a result of healthcare 
reform. Because 458,000 nurses are predicted to retire in the next few 
years, the total number of available nursing jobs may grow to more than 
1 million. In Iowa, a surge of nurse retirements is likely in the next 
decade, especially as the U.S. economy recovers, because 45 percent of 
Iowa's registered nurses are 49 years of age or older. According to a 
governor's task force report released in March 2008, Iowa had about 8 
percent fewer nurses than were needed. This shortfall may increase to 
27 percent in the next 10 years, or as many as 9,100 unfilled 
registered nurse positions (about 22 percent of Iowa's RN current 
workforce).
    To meet the demand for registered nurses, Health Resource and 
Services Administration (HRSA) officials estimate the United States 
must graduate 90 percent more nurses from nursing programs. Because 
more than 60 percent of our Nation's nurse educators are 50 years of 
age or older, a probable shortage of nursing faculty is likely to 
result in fewer admissions to nursing programs. The American 
Association of Colleges of Nursing (AACN) recently reported that more 
than 50,000 qualified nursing applicants were turned away from 
baccalaureate and graduate nursing programs in 2009-2010 because of a 
shortage of nursing faculty, clinical sites, classroom space, clinical 
preceptors, and budget constraints.
    Federal support of Allen College has been critical to Allen 
College's success in increasing the number of well-qualified staff 
nurses, nurse practitioners, nurse educators, and nurse leaders for 
Iowa. In fiscal year 2010 Allen College received more than $440,000 in 
title VIII funds to support undergraduate and graduate nursing students 
and to support improvements in our graduate nursing program. These 
funds were made available through an advanced nursing education grant, 
advanced education nursing traineeships, the nurse faculty loan 
program, and scholarships for disadvantaged students. Our students rely 
upon this support to help them realize their career goals. The advanced 
nursing education grant that we received allowed us to hire an 
instructional designer and additional faculty and staff and to increase 
our enrollment of students throughout Iowa. In our psychiatric nurse 
practitioner program, for example, we have doubled our enrollment to 16 
students as result of this support. During the 2009-10 academic year, 
35 of the 52 graduates from our MSN program received Federal nurse 
traineeship support. Of those 35, at least 25 are working in medically 
underserved areas and/or serving underserved populations.
    The Title VIII Nursing Workforce Development programs, as well as 
other Federal programs that provide financial aid, are critical to 
support students in completing their degree and making their future 
debt burden manageable--especially in the current recession. In past 
nurse shortages, the Federal Government has provided increases in title 
VIII funds which have been effective in increasing the supply of 
nurses. Today, continued and increased support for the title VIII 
program is critically important to schools of nursing and their 
students if our Nation is to avert a shortage of well-prepared 
registered nurses. Because registered nurses comprise the largest 
number of healthcare professionals in our Nation, an adequate nursing 
workforce is critical to our Nation's future. Given the projected 
shortages of registered nurses over the next several years, the need 
invest in the nursing workforce has never been more crucial.

    Senator Harkin. Now we turn to Reverend Mark Anderson. 
Reverend Anderson, welcome and, again, please proceed.

STATEMENT OF MARK A. ANDERSON, ASSISTANT TO THE BISHOP, 
            NORTHEASTERN IOWA SYNOD, EVANGELICAL 
            LUTHERAN CHURCH IN AMERICA, WAVERLY, IOWA
    Reverend Anderson. Chairman Harkin, thank you for the 
invitation to testify today. I am anxious to describe the work 
of a unique joint venture.
    Barnabas Uplift is an independent, not-for-profit 
corporation formed out of a partnership of the congregations in 
Iowa of the Evangelical Lutheran Church in America and its 
social service agency, Lutheran Services of Iowa. And also, the 
congregations of the Roman Catholic Archdiocese of Dubuque and 
its agency, Catholic Charities, also Muslim American Services 
and Iowans for Social and Economic Development. We are also 
assisted by friendly institutions, including Wartburg College 
and, of course, our community colleges.
    I would like to describe all the aspects of Barnabas 
Uplift, but because of our limited time together, I will narrow 
my testimony to the Help4Health program. Senator, Hunger in 
America 2010 is the first research study to capture the 
significant connection between the recent economic downturn and 
the increased need for emergency food assistance.
    This study reports that at least 40,000 people, including 
16,000 children and almost 4,000 seniors, receive food 
assistance each year just through the Northeast Iowa Food Bank 
and its agencies. In other words, in Iowa, 1 in 8 individuals 
are experiencing some kind of food insecurity, meaning they 
lack consistent access to adequate amounts of nutritious food.
    Barnabas Uplift is second to none in its appreciation for 
food banks and community meals. But handouts and soup kitchens 
can only address the symptoms of hunger, not the root cause. 
Why are people hungry? It is not because there is a food 
shortage. It is because they cannot afford to buy their own 
food or food for the children.
    We cannot end hunger until we end poverty. One of the ways 
Barnabas Uplift fights poverty is by removing the barriers to 
job training and placement for the poor, with a special 
emphasis on outreach to the rural poor. Our outreach strategy, 
of course, includes utilizing the social service providers ISED 
and LSI, Catholic Charities, and MAS, to invite their existing 
clients to apply for the program.
    However, it also, and more interestingly, uses pastors and 
priests and Imams to ask their flocks to seek out members, 
children, grandchildren, neighbors, students, anyone in the 
community who needs a boost up the ladder of success. Once a 
potential client has been screened, they are invited to be 
trained as a certified nurse's aide.
    In our metropolitan areas, the students are given a 
scholarship to attend one of our fine community colleges. But 
in rural areas, a teacher is brought to town, and classes are 
held in church basements and nursing homes and community 
education centers.
    In some communities, church members provide childcare and 
even a meal for the student and the whole student's family so 
class can go on into the evening. Staff people that we call 
coaches work alongside the instructor to support and encourage 
the student all the way through to completion.
    The program's independent interim evaluation documents that 
already our outreach strategy was successful in recruiting 187 
percent of our goal. To date, 122 students have successfully 
completed the training.
    Senator, of those 122 who completed the program, 95.9 
percent have been successfully placed in a job in the 
healthcare industry. That means 117 Iowa households that once 
existed at or near poverty level now have a regular income.
    Serving as a CNA is both physically and emotionally 
challenging. But many nursing homes and hospitals reward 
competent CNAs with tuition reimbursement for those who wish to 
continue their studies to become LPNs or RNs. So we see the CNA 
training as not a first job, but the first step into a 
meaningful career.
    The Federal Government has made a small financial 
investment in the Help4Health program through a Federal 
allocation, sometimes called an earmark, which you, Senator 
Harkin, helped us to secure. Thank you.
    Since the classroom, the space, the meals, the daycare, the 
graduation parties, mentoring, outreach, and much more are all 
donated by the community and by the church, there is only a 
small administrative cost above approximately $700 tuition per 
student. This is what the earmark pays for, tuition and some 
administration.
    So just imagine for about $700, a household can be made 
independent from monthly support checks from the Government. 
These funds not only help the families, but they also provide 
desperately needed workers to care for our sick and our elderly 
and transform households from taxpayer supported to being 
taxpayers themselves.
    And of course, the smaller the community, the larger the 
impact. For example, if you can imagine 10 households in a 
place like Oelwein moved from being unemployed to gainfully 
employed, that is a big difference for the families. It is a 
big difference for the whole community.
    Seven hundred dollar tuition is often an investment that 
pays for itself in a matter of weeks. Unfortunately, the media 
sometimes portrays earmarks as free money to be frittered away. 
The reality is so much different.
    The good stewardship of this public money is continually 
monitored, including goals and timelines to meet and regular 
reports to submit, even onsite inspections. Every penny must be 
accounted for, and every obligation met.
    Senator, you should know that in communities--Iowa Falls, 
Radcliffe, and now Postville--individual donors are so inspired 
by the Federal Government's support and by your leadership that 
they are personally financing the program out of their own 
pockets. On the other hand, because the allocation your office 
helped us to get to continue this work did not pass the House 
in the omnibus bill, for many cities, particularly our larger 
cities and our hardest to reach students, this program is soon 
going to come to an end.
    Thank you, Senator, for this opportunity to testify and for 
you walking with the poorest members of our society.
    Senator Harkin. Thank you very much, Reverend Anderson.
    [The statement follows:]

              Prepared Statement of Rev. Mark A. Anderson

    Chairman Harkin, thank you for the invitation to testify today. I 
am anxious to describe for you the work of a unique new joint venture. 
``Barnabas Uplift'' is an independent, not-for-profit corporation 
formed out of a partnership of the churches in Iowa of the Evangelical 
Lutheran Church in America and its social service agency, Lutheran 
Services in Iowa (LSI); the Roman Catholic Archdiocese of Dubuque and 
its agency, Catholic Charities; Muslim American Services; and Iowans 
for Social and Economic Development (ISED). We are also assisted by 
friendly institutions including Wartburg College, and our community 
colleges.
    I would like to describe all aspects of Barnabas Uplift but, 
because of our limited time together, I will narrow my remarks to the 
``Help4Health'' Program. Senator, ``Hunger In America 2010'' is the 
first research study to capture the significant connection between the 
recent economic downturn and an increased need for emergency food 
assistance. This study released by Feeding America, the Nation's 
largest domestic hunger-relief organization, reports that at least 
40,000 people, including more than 16,000 children and almost 4,000 
seniors, receive food assistance each year just through the Northeast 
Iowa Food Bank and its member agencies. In Iowa, 1 in 8 individuals are 
experiencing food insecurity, meaning that they lack consistent access 
to adequate amounts of nutritious food.
    Barnabas Uplift is second to none in its appreciation for food 
banks and community meals. But handouts and soup kitchens can only 
address the symptoms of hunger and not the root cause. Why are people 
hungry? It is not because there is a food shortage. It is because they 
cannot afford to buy food. We cannot end hunger until we end poverty. 
One of the ways Barnabas Uplift fights poverty is by removing the 
barriers to job training and placement for the poor with a special 
emphasis on outreach to the rural poor. Our outreach strategy, of 
course, includes utilizing the social service providers at ISED, LSI 
and Catholic Charities to invite their existing clients to apply for 
this program. However, it also uses pastors, priests, and imams to ask 
their flocks to seek out members, children, grandchildren, neighbors, 
students, anyone in the community who needs a boost up the ladder of 
success. Once a potential client has been screened, they are invited to 
be trained as Certified Nursing Aids (CNA). In our metropolitan areas, 
the students are simply given a scholarship to attend one of our fine 
community colleges. In rural areas, a teacher is brought to the town 
and classes are held in church basements, nursing homes, and community 
education centers. In some communities, church members provide 
childcare and even a meal for the student and the student's whole 
family so class can continue into the evening. Staff people we call 
``coaches'' work along side the instructor to support and encourage the 
student through to completion.
    The program's independent interim evaluation documents that already 
our outreach strategy was successful in recruiting 187 percent of our 
goal. To date, 122 students have successfully completed the training. 
Senator, of those 122 who completed the program, 95.9 percent have been 
successfully placed in a job in the healthcare industry. That means 117 
Iowa households that existed at or near poverty level now have a 
regular income. Serving as a CNA is both physically and emotionally 
challenging, but many nursing homes and hospitals reward competent CNAs 
with tuition reimbursement for those who wish to continue their studies 
to become LPNs or even RNs. So, we see the CNA training as not a first 
job but a first step in a career.
    The Federal Government has made a small financial investment in the 
Help4Health program through a Federal allocation sometimes called an 
``earmark'' which you, Senator Harkin, helped us to secure. Since the 
classroom space, meals, daycare, graduation parties, mentoring, 
outreach, and much more are all donated by the community, there is only 
a small administrative cost above the approximately $700 tuition per 
student. This is what the ``earmark'' pays for, tuition and some 
administration. Just imagine, for about $700 a household can be made 
independent of monthly support checks from the Government. These funds 
not only help these families but also provide desperately needed 
workers to care for the sick and elderly, and transform households from 
taxpayer-supported to being taxpayers. Of course, the smaller the 
community the larger the impact, for example, if we can help 10 people 
in Oelwein move from unemployed to gainfully employed, that makes a big 
difference for both the families and community. This is often an 
investment that pays for itself in a matter of weeks.
    Unfortunately, the media has sometimes portrayed these ``earmarks'' 
as free money frittered away. The reality is much different. The good 
stewardship of this public money is continually monitored including 
goals and timelines to meet, regular reports to submit and even 
inspections. Each and every penny must be accounted for and every 
obligation met.
    Senator, you should know that in the communities of Iowa Falls, 
Radcliffe and now Postville, individual donors are so inspired by the 
Federal Government's support they are personally financing the program 
in their own communities out of their own pockets. On the other hand, 
because the allocation your office helped us with to continue this work 
did not pass the house in the omnibus bill, for many cities this 
program will soon come to an end.

    Senator Harkin. And now, Jonathan Keniston. Welcome. I read 
your testimony, and it is very profound. Please proceed.

STATEMENT OF JONATHAN KENISTON, STUDENT, HAWKEYE 
            COMMUNITY COLLEGE, WATERLOO, IOWA
    Mr. Keniston. Thank you, Senator, for the opportunity to 
speak today.
    Hello. My name is Jonathan Keniston. I am a 31-year-old 
student currently attending Hawkeye Community College in 
Waterloo, Iowa.
    I am here today because I was asked to tell you a little 
bit about my life experiences and how the Pell grant has aided 
in my educational journey and success. First, I would like to 
tell you a little bit about myself.
    I was born and raised in Waterloo, Iowa, and have lived 
here for most of my life. After graduating from East High 
School, I enlisted in the United States Air Force, where I was 
trained as a munitions specialist and a military policeman. My 
service to our country was an unforgettable experience that 
took me around the world and was instrumental in providing the 
foundational skills and values that have guided my life since 
then.
    Following my enlistment, I returned home to Waterloo in the 
summer of 2001. After only being home for a month, a friend and 
I were driving home when we were struck head on by a drunk 
driver traveling at 75 miles an hour, causing serious injury to 
me and taking the life of a childhood friend.
    After being released from the hospital, I had to go through 
physical rehabilitation. Five months into therapy, I was rear-
ended by another drunk driver, causing more injuries, forcing 
me to start the rehabilitation process all over again. The time 
I spent in physical therapy prompted my initial interest in the 
medical field, and from there, the desire continued to grow.
    In the fall of 2002, I met my beautiful wife, Emily. Not 
wasting any time, we were married 2 years later in the fall of 
2004. Shortly after getting married, we were overjoyed by the 
arrival of our first child, a little girl named Ellie Jo, who 
is now 5 years old and daddy's little girl. This was the best 
time in my life, newly married and becoming a new father to a 
precious little girl.
    Feeling like I was on top of the world and enjoying my new 
career as a realtor in the Cedar Valley, I realized how quickly 
things can change in life with my father's unexpected failing 
health. He was diagnosed with congestive heart failure. 
Throughout the next year, he struggled through a brain 
hemorrhage, leading to multiple seizures resulting in a brain 
aneurysm ending his battle with heart disease.
    While dealing with this great despair of losing my father, 
these emotions were overshadowed by the news of expecting our 
first son, who bears my father's middle name, Austin James, who 
is now 3 years old. Last, but not least, 17 months later, our 
family grew once again with the addition of our youngest child, 
Ian Scott, who is now 2 years old.
    My experience with rehabilitation following the car 
accidents, the events and complications of my father's disease, 
and the wonderful experience of the births of my three 
children, a new desire was growing in my heart to redirect my 
career toward the medical field. After selling real estate for 
several years in the Cedar Valley, I wanted a healthier, more 
stable lifestyle for my family with a brighter financial future 
that only higher education could provide.
    With numerous responsibilities at this point in my life and 
changing careers, enduring the financial struggles of achieving 
a higher education seemed almost unattainable and frightening, 
to say the least. Researching tuition and the cost of living 
for my family, the actual expense of college grew 
exponentially.
    With the help of Pell grants and financial aid, we were 
able to make our decision that I was going to attend Hawkeye 
Community College in the fall of 2009. Committing to school, my 
wife and I were faced with several critical financial 
decisions, beginning with restructuring our lifestyle, selling 
our home for a more affordable one, and trading our vehicle in 
for a smaller, more fuel-efficient model.
    Walking through the doors on the first day of school, I 
felt nervous and out of place. But I viewed school as my new 
job, with the attitude of ``failure is not an option.'' Jumping 
in head first, I registered and completed a total of 34 credit 
hours my first year at college.
    After achieving a 4.0 GPA, I was placed on the dean's list, 
was awarded a scholarship this spring, and given an invitation 
to the Phi Theta Kappa honor society. In addition, I have been 
accepted into the radiography program at Allen College in 
Waterloo, starting this fall following May graduation.
    The Pell grants have helped me attend school full time, 
including attending classes over both Christmas breaks and last 
summer, covering the majority of the average full-time tuition 
cost. The Pell grants provided me with the financial ability to 
worry less about the cost of college, permitting me to focus on 
my academics and allowing me to enroll in additional classes 
every semester, enabling me to graduate sooner.
    The money that I have received from the Pell grant program 
has lessened my fears of leaving college only with student 
loans and no degree. These funds make the dreams of obtaining a 
college degree more realistic, even with the cost of higher 
education continuously increasing. With both my wife and I 
currently taking advantage of the Pell grants, it has relieved 
an enormous financial burden off of our family, making it 
possible for my wife to pursue a career as a dental hygienist.
    My future plans and goals are to graduate from the 
radiography program at Allen College and then attend the 
University of Iowa to seek a bachelor's degree in radiation 
science and enter a master's degree program. I have proven 
myself through adversity and challenges in my past to get to 
this point in my life and will continue to press forward toward 
my goals and aspirations.
    If the Pell grant program funding is cut dramatically, 
coupled with the rising costs of tuition, I feel that my 
college educational goals will be driven further out of my 
financial grasp. The reduction in Pell funding would also 
restrict my family by allowing only one of us to attend college 
part time, greatly extending our time spent in college and 
limiting my financial ability to support my family and further 
my educational goals in completing my bachelor's and master's 
degree.
    Thank you very much for your time.
    Senator Harkin. Thank you, Jonathan. Great story. 
Congratulations.
    [The statement follows:]

                Prepared Statement of Jonathan Keniston

    Hello, my name is Jonathan Keniston. I am a 31-year-old student 
currently attending Hawkeye Community College in Waterloo, Iowa. I am 
here today because I was asked to tell you a little about my life 
experiences and how the Pell grant has aided in my educational journey 
and success. First, I would like to tell you a little about myself. I 
was born and raised in Waterloo, Iowa, and have lived here for most of 
my life. After graduating from East High School, I enlisted in the 
United States Air Force where I was trained as a munitions specialist 
and military policeman. My service to our country was an unforgettable 
experience that took me around the world and was instrumental in 
providing the foundational skills and values that have guided my life 
since then. Following my enlistment, I returned home to Waterloo in the 
summer of 2001. After only being home for a month, a friend and I were 
driving home when we were struck head-on by a drunken driver traveling 
at 75 miles per hour causing serious injuring to me and taking the life 
of a childhood friend. After being released from the hospital, I had to 
go through physical rehabilitation. Five months into therapy, I was 
rear-ended by another drunken driver, causing more injuries which 
forced me to start the rehabilitation process all over again. The time 
I spent in physical therapy prompted my initial interest in the medical 
field and from there the desire continued to grow.
    In the fall of 2002, I met my beautiful wife, Emily. Not wasting 
any time, we were married 2 years later in the fall of 2004. Shortly 
after getting married, we were overjoyed by the arrival of our first 
child, a little girl named, Ellie Jo, who is now 5 years old and 
daddy's little girl. This was the best time in my life, newly married 
and becoming a new father to a precious little girl. Feeling like I was 
on top of the world and enjoying my new career as a Realtor in the 
Cedar Valley, I realized how quickly things can change in life with my 
father's unexpected failing health. He was diagnosed with congestive 
heart failure. Throughout the next year, he struggled through a brain 
hemorrhage leading to multiple seizures resulting in a brain aneurysm 
ending his battle with heart disease. While dealing with the great 
despair of losing my father, these emotions were overshadowed by the 
news of expecting our first son who bears my father's middle name--
Austin James, who is now 3 years old. Last, but not least, 17 months 
later, our family grew once again, with the addition of our youngest 
child, Ian Scott, who is now 2 years old.
    My experience with rehabilitation following the car accidents, the 
events and complications of my father's disease, and the wonderful 
experience of the births of my three children, a new desire was growing 
in my heart to redirect my career toward the medical field. After 
selling real estate for several years in the Cedar Valley, I wanted a 
healthier more stable lifestyle for my family with a brighter financial 
future that only higher education could provide. With numerous 
responsibilities at this point in my life and changing careers, 
enduring the financial struggles of achieving higher education seemed 
almost unobtainable and frightening--to say the least. Researching 
tuition and the cost of living for my family, the actual expense of 
college grew exponentially. With the help of Pell grants and financial 
aid, we were able to make our decision that I was going to attend 
Hawkeye Community College in the fall of 2009. Committing to school, my 
wife and I were faced with several critical financial decisions 
beginning with restructuring our lifestyle, selling our home for a more 
affordable one and trading our vehicle in for a smaller more fuel-
efficient model.
    Walking through the doors on the first day of school, I felt 
nervous and out of place, but I viewed school as my new job with the 
attitude of--failure is not an option. Jumping in head first, I 
registered and completed a total of 34 credit hours my first year at 
college. After achieving a 4.0 GPA, I was placed on the Dean's List, 
was awarded a scholarship this spring, and given an invitation to the 
Phi Theta Kappa Honor's Society. In addition, I have been accepted into 
the Radiography program at Allen College in Waterloo, starting this 
fall following May graduation. The Pell grants have helped me attend 
school full-time including attending classes over both Christmas breaks 
and last summer covering the majority of the average full-time tuition 
cost. The Pell grants provided me with the financial ability to worry 
less about the cost of college--permitting me to focus on my academics 
and allowing me to enroll in additional classes every semester enabling 
me to graduate sooner. The money that I have received from the Pell 
grant program has lessened my fears of leaving college with only 
student loans and no degree. These funds make the dreams of obtaining a 
college degree more realistic even with the cost of higher education 
continuously increasing. With both my wife and I currently taking 
advantage of Pell grants, it has relieved an enormous financial burden 
off our family making it possible for my wife to pursue a career as a 
dental hygienist.
    My future plans and goals are to graduate from the radiography 
program at Allen College, and then attend The University of Iowa to 
seek a bachelor's degree in radiation science, and enter a master's 
degree program. I have proven myself through adversity and challenges 
in my past to get to this point in my life and I will continue to press 
forward toward my goals and aspirations. If the Pell grant program 
funding is cut dramatically, coupled with the rising cost of tuition, I 
feel that my college educational goals will be driven further out of my 
financial grasp. The reduction in Pell funding would also restrict my 
family by allowing only one of us to attend college part-time, greatly 
extending our time spent in college, and limiting my financial ability 
to support my family and further my educational goals in completing my 
bachelor's and master's degrees. Thank you.

    Senator Harkin. Well, I think all of us now can see from 
the testimony of all these witnesses that there are profound 
effects on what we do in Washington and how we shepherd and 
dispense with our taxpayers' dollars. And so, as I said in my 
opening statement, the deficits we have are unsustainable. We 
all know that.
    Now we do have to bring them under control. But in doing 
so, as I said at the beginning, we have to be careful that we 
don't eat our seed corn, as we like to say in Iowa, and that we 
don't just say, well, we will just push it off on the backs of 
our most vulnerable. Well, they don't have a lot of money. They 
don't have powerful lobbyists in Washington.
    But they rely upon good people like all of you here to give 
them hope and to give them opportunity and to make sure that 
the other Jonathan Kenistons out there and the other ones that 
you mentioned, Dr. Allen--I forgot her name--the young woman 
you mentioned who is a chemistry student now?
    Dr. Allen. Yes. Reygan Freeney, on our staff now, faculty.
    Senator Harkin. To make sure that we know there are more 
out there like her and like Jonathan and others, and we have 
just got to make sure that we don't leave them behind and that 
we make sure that they have every opportunity to succeed. And 
so, that is really the purpose of this hearing and other 
hearings I will be having on this subject is to make the record 
on that and to show that we have people out there that need 
some assistance, that need maybe just a little boost up--Head 
Start, a Pell grant.
    A person on disability needs to make sure that their case 
is heard right away. I know you don't do disability in your 
office, but as an example of that. Or as you said, someone who 
is on SSI, and they don't have anything. Can they afford to 
wait 1 month or 2 months? They can't afford----
    Mr. Nelson. No, they can't.
    Senator Harkin [continuing]. To do that. So we have an 
obligation to meet, and we are going to do everything we can to 
meet that obligation.
    Now I said that my staff had passed out some cards, and I 
have staff around here. Now would be a good time if you have 
questions to pass them in and give them to her, and I will try 
to get to those questions as many as I can.
    Dr. Allen, let me just start kind of a round of questions 
with you. By law, the Federal Government must by February 1, if 
I am not mistaken, must make known what the Pell grant awards 
will be for the next school year so that colleges can plan on 
it. And so, by law, the Department of Education, I think, just 
in the last week, if I am not mistaken, sent out to the 
colleges what those awards would be so that Dr. Allen and our 
other college presidents--I am sure you, too, Dr. Durham--can 
look at that and say, okay, here is basically what we can 
expect from the Pell grant program.
    Now, by law, we have to do that, and it makes sense for 
planning purposes. Now we have the funding bill in the Congress 
right now that will be up in March, and some of the proposals 
are to make drastic cuts in that, which then would reduce the 
amount of money in the Pell grant program.
    Dr. Allen, what would that do to you and the university? 
Right now, you are planning. You have got that from the 
Department of Education. So now you are starting to plan ahead 
for that. What happens if in March that all of a sudden that is 
cut by 24 percent, and then we don't know if that is going to 
hold. It bounces back and forth and back and forth. Just what 
is the impact on you and I of that kind of a process and the 
possibility of a 24 percent cut from what you have already been 
told you are getting?
    Dr. Allen. Senator Harkin, let me first answer in the 
context of the university, but maybe more importantly, on the 
context of the student. From the university's point of view, it 
clearly challenges our financial aid office who works very 
hard, diligently to put together financial packages, including 
the Pell grant, including private scholarships, loans. And so, 
if this would change by that magnitude, it would destroy kind 
of the interconnections there in terms of what we could offer.
    Now that would then force us to reconsider issues such as 
our set-aside percentage, which is about 18 percent. Would that 
have to go up? If so, from the university's perspective, it 
would create a lot of challenges. And quite honestly, I think 
it could affect our enrollment.
    But more importantly, what does it do for the student?
    Senator Harkin. Student, yes.
    Dr. Allen. Because the families are trying to plan for next 
year, and we are partly guilty of this ourselves at the 
university. We still have not decided on the tuition level for 
next year. But for the families who are trying to budget for 
next year, this would change that late in the year. It would 
create a tremendous challenge for them.
    The students will probably have to find additional 
opportunities to work on campus or off campus. They may have to 
delay their education. But the other thing that happens here, 
and I didn't talk about this much, it affects, I think, the 
success of our students because if they get less money from the 
Pell grant, they work more hours, less time for study. And so, 
it is simply a cascading effect on not only accessibility, but 
also on success of the students.
    Senator Harkin. Mm-hmm. Dr. Allen, you mentioned a couple 
of people in your testimony. One you mentioned was Danielle 
Stuck?
    Dr. Allen. Yes.
    Senator Harkin. A Pell grant recipient. She is a junior. 
What you didn't tell us is that she was valedictorian of her 
class of 312, carries a perfect 4.0 grade point average, and is 
a member of the honors program. And this is someone who is, I 
guess, again relying upon a Pell grant?
    Dr. Allen. That is correct.
    Senator Harkin. Is she here?
    Dr. Allen. Danielle, I am not sure she is. But if she is, I 
hope she does stand up.
    Senator Harkin. Danielle Stuck is--well, maybe----
    Dr. Allen. She is probably studying.
    Senator Harkin. Yes, with a 4.0 grade point average, she 
probably is. Doesn't have time for this.
    But it is just again----
    Dr. Allen. But let me add to your comment, Senator.
    Senator Harkin. Yes.
    Dr. Allen. The reason we didn't put all that in there, when 
she provided us the information, she did not tell us about that 
valedictorian. She was focused on what she was able to gain 
from the Pell grant and did not brag about her accomplishments. 
We had to get permission to even state the 4.0 grade point 
average because of obvious confidentiality issues.
    So all this came out after the fact, and so that is why I 
said it would be a great loss if we couldn't have her this--
give her this opportunity to get an education.
    Senator Harkin. And she has no parental support?
    Dr. Allen. No.
    Senator Harkin. As I understand, whatsoever?
    Dr. Allen. That is correct.
    Senator Harkin. Senator Dotzler, you chair important 
committees in the State senate. You did mention the WIA 
program. You went on quite a bit about the WIA and the support 
that we have for the dislocated worker program.
    Now under the American Reinvestment and Recovery Act, so-
called stimulus, there was--Iowa received another $10 million 
through the dislocated worker program and then another $9 
million--oh, I am sorry. There was $9 million that came in 
under the Recovery and Investment Act and $10 million for 
dislocated workers. So, again, these helped, as I understand, 
train displaced workers for employment in new fields, temporary 
jobs, cleaning up and recovery efforts in the wake of flooding, 
tornadoes.
    Now I understand the House--our House of Representatives--
are threatening to cut these programs by an 8 percent cut or 
more. Is that right? Is that right, 8 percent cut? Okay.
    So if we cut all those things, the WIA programs, by 8 
percent, what does that mean here in Iowa on worker training, 
just on worker training in Iowa?
    Mr. Dotzler. Well, Senator, what it means is that workers 
won't get the training they need. They will sit on unemployment 
benefits longer and longer until they exhaust them, and you 
know how difficult it is to give continual extensions on 
unemployment to get through Congress. And as a net result, we 
will end up putting people more on the welfare rolls.
    We are finding today that people who are long-term 
unemployed, who are working hard to try to get a job, are 
viewed in a way by employers that--in suspect. And so, we are 
working with our community colleges, and I mentioned Kirkwood. 
But I know Hawkeye and other community colleges have been 
looking at shorter-term training programs that are specific to 
what employers say their needs are, to give them certified 
skill sets that will upgrade their skills in a kind of a short-
term basis at least to make them employable and allow them to 
move forward.
    But when you talk about individuals, and I mentioned Donnie 
Stanley, who was an unemployed mother. She was on welfare, and 
it was really a combination of programs through Pell grants and 
workforce dollars, and they all go together to kind of add to a 
total package that will allow somebody to get the education 
skills they need. And because of that, she found a career that 
she really loves.
    And I had an opportunity to talk to her this week, and she 
is planning on going on ahead in nursing. She has several 
children she is taking care of on her own. So she is working 
full time, trying to go to additional education, and the main 
thing is she is not on welfare, and she is helping her family.
    And so, those training dollars also, you know, allow the 
employers to find the workers they need. When we got 6.3 
percent unemployment in the State of Iowa, it is still 100,000 
people out of work. And you would think that every employer 
could find the workers that they need, but we still have job 
openings that are out there. Some of them require college 
degrees, but there are plenty of skill sets that are short, 
especially in construction trades and nursing, areas that--
nurse's aides that require a little bit less.
    And these dollars are so important to get these workers in 
to meet the employer's need, and they help expand our economy. 
We get a return for our investment.
    Senator Harkin. Sure.
    Mr. Dotzler. So those dollars are important. We utilized 
them in very important ways, and you saw the success numbers on 
the return for the investment just on wages. So it is something 
that we really need to--as you said, that is the seed corn that 
is really producing our crop of skilled workers, and it is so 
important, especially when you are talking about low-income and 
disadvantaged workers and people who lost their jobs.
    Senator Harkin. You mentioned one other thing that I wanted 
to just get into a little bit about your brother-in-law----
    Mr. Dotzler. Yes.
    Senator Harkin [continuing]. Who had lost his job, was 
moving to another job----
    Mr. Dotzler. He was employed in a new job.
    Senator Harkin. But he hadn't got his health insurance.
    Mr. Dotzler. Right. Because you usually have a probationary 
period, and he was in his 50s, a young man. And he couldn't 
afford the COBRA, which you are allowed to carry your 
insurance. But when you are unemployed and on unemployment----
    Senator Harkin. How can you pay for it?
    Mr. Dotzler [continuing]. Benefits and have a family, that 
is really difficult. So, and my sister doesn't have health 
insurance. And so, it worked out that they thought they could 
get by, and he had this heart attack when we were at a family 
funeral. And he drove himself to the hospital, and it was a 
major heart attack, and he was lucky he survived.
    But he went through that. He got out, and they said, well, 
you need a stent on the other side. You have got a 90 percent 
blockage in another artery, and we need to do this immediately. 
And he said, ``I can't do it. I have already drove this debt. I 
don't have insurance. I have to wait.'' And he had a couple of 
close calls between times and then finally had the procedures.
    But it points to how important the Healthcare Act really is 
to the citizens of Iowa. And we also have heard from employers 
that that is one of the limiting factors that they have is 
dealing with healthcare costs in hiring new people, and that is 
why those tax credits that you have put into that program are 
so important to our economy and to help people move forward.
    The increase on health insurance rates, 24 percent to an 
individual who is taking care of her mother on a limited 
income. Her mother has severe dementia, and she is a full-time 
daycare provider and night care provider, and she can't afford 
those increases. But it is either that or go without insurance. 
So these things affect Iowans in many, many ways, and that is 
just a couple of stories, Senator. There are hundreds of them 
across the State.
    Senator Harkin. Well, that is all changing.
    Mr. Dotzler. Thank God.
    Senator Harkin. That is all changing. By 2014, by the time 
we phase this all in, first of all, people will not be locked 
into a job. There are a lot of people now that feel a job lock. 
They have to stay in a job because they can't afford to give up 
their health insurance.
    They might even want to go out and start a new business, a 
small business, be an entrepreneur. Can't do it if they lose 
their health insurance. So, from now on, that won't happen any 
longer.
    And if you move to a new job, you will have your coverage 
and take it with you. And again, in your brother-in-law's case 
or cases like that, he will not be denied insurance because he 
has a pre-existing condition. So, again, I think this is going 
to do a great thing for business and for business growth and 
economic growth down the road.
    Mr. Dotzler. I agree.
    Senator Harkin. Mr. Nelson, you know, I have been in 
Government a long time. And you always hear about the term 
``bureaucrats.'' You hear bureaucrats, bureaucrats. Usually it 
is used as almost like a pejorative term. I just want you to 
know this is one United States Senator that appreciates 
bureaucrats like you and the kind of job that you do.
    Mr. Nelson. Thank you.
    Senator Harkin. We have so many good people out there like 
you, and I don't know all the people that work for you that 
come to work every day. They are helping people's lives, 
helping them through rough times. And especially in the Social 
Security Administration, just doing great work. And I just want 
you to know, I think I speak for a lot of people here, we 
really appreciate that very, very much.
    Mr. Nelson. Thank you.
    Senator Harkin. I thought about this furlough business. Did 
you say maybe up to 3 weeks of furlough? Did you say that?
    Mr. Nelson. I didn't say that, no. I have heard that.
    Senator Harkin. Oh, I have heard that, too.
    Mr. Nelson. Yes.
    Senator Harkin. What would happen? What happens?
    Mr. Nelson. Oh, what would happen? You know, as a member of 
the community, just the thought of shutting down the Waterloo 
office for even a day would be painful to imagine. And I 
mentioned some of the things earlier. I mean, our first 
priority is to provide excellent service to the public in the 
Waterloo area here.
    And there are so many individuals in need, as we talked 
about earlier, vulnerable adults. They come into our office on 
a daily basis, and some of them aren't even really sure what 
they need, and we help them through the process all along and 
refer them to the right agencies. We are doing the right things 
to help them.
    Earlier in my statement, I mentioned that Social Security 
is one of the most successful Government programs ever created, 
and the reason for that is we keep the elderly out of poverty. 
More than one-half would fall in poverty if not for Social 
Security. I think the chairman, Senator Reid, said it was the 
greatest program even in the world, I think, was his quote. I 
will take him for his word on that.
    Senator Harkin. At least in this country it has been great.
    Mr. Nelson. Yes.
    Senator Harkin. Ms. Young-Kent, again, reminding us of our 
meeting 18 years ago, you focused a lot on the Head Start 
program. Two things I want you to just elaborate a little bit 
on, the Early Head Start program, and also the fact that Head 
Start encompasses more than just education. And it covers a lot 
of wraparound services.
    Ms. Young-Kent. Right.
    Senator Harkin. Could you just talk about a family whose 
child is getting Head Start services and what things that 
family also gets as a benefit from that?
    Ms. Young-Kent. First, talking about Early Head Start, we 
are now encompassing families as early as prenatal moms.
    Senator Harkin. That is right.
    Ms. Young-Kent. And so, we are going to begin service with 
that mom and make sure that she is getting to her medical 
appointments so that she is meeting targets for good nutrition 
for herself and for the baby. Meets those necessary and needed 
medical pieces for healthy birth outcomes.
    Then we are going to continue the services with that 
family. One of my favorite programs is our Early Head Start 
Home Base program, and that is where our home visitors, who 
have all degrees in either social work or education, are in the 
home with our families for 90 minutes at least every week, and 
then they do some socialization on top of that every month.
    But in that Home Base program, they are working directly 
with the families. So we are setting goals as a family. We are 
also doing child development. So we are making sure kids are 
healthy. Head Start does encompass the medical, mental health, 
dental, all of those good kind of things. We make sure kids are 
up to date on all of their requirements. We follow the EPSDT 
standards in terms of early and periodic--and what is all that 
stuff, Jerry?
    Anyway, make all those things happen. So kids are healthy 
and ready to learn. Dental health is huge for us. All of the 
children in our program, even in our Early Head Start program, 
after the age of 12 months are seen by a dentist. There are 
pediatric dentists available in our community, thank you very 
much. And they have provided wonderful opportunities for us to 
partner together so we can get those services to kids and 
families.
    We had a number of children I can name about--well, one is 
going to happen tomorrow or on Monday, excuse me. But families 
who have to--who have significant enough dental issues that 
they have to have surgery. And the dentists put the children to 
sleep so that they can do the massive kind of work that needs 
to be done.
    And if kids don't have decent dental health, they can't 
eat. And if they can't eat, they can't grow. And if they can't 
grow, then there are all kinds of stuff that comes into that.
    We also provide comprehensive services in terms of 
developmental environments and assessments and screens so that 
kids are on target to do the things that they need to get done 
and be ready to start school. Sixty-three percent of our kids 
left our Head Start program at or above proficient, ready to go 
to kindergarten----
    Senator Harkin. Good.
    Ms. Young-Kent [continuing]. In literacy and language.
    Senator Harkin. Good.
    Ms. Young-Kent. Better in every one, 100 percent of them 
had medical treatment. The kids that needed treatment got 
treatment. So we are providing that whole gamut and helping 
families at the same time set those goals so that they don't 
have to worry so much about their children while they are 
worrying and doing--pursuing their job training opportunities 
and their skilled labor opportunities as well.
    Senator Harkin. Just as a side footnote-type thing, as you 
know, we are right now in negotiations and we are developing 
the reauthorization of the Elementary and Secondary Education 
Act, the so-called ``No Child Left Behind.'' I hope to have 
that through our committee around Easter time.
    One of the goals that I think we have good bipartisan 
support on is to more closely align the Head Start program, the 
educational aspect of that, with what kids need to have when 
they enter kindergarten or first grade. And so, I am working 
with the Head Start Association, the national association, to 
help try to develop what those would be. How would you set 
those kind of guidelines so that kids get the education they 
need to be proficient when they enter first grade?
    Ms. Young-Kent. Right.
    Senator Harkin. So if you have thoughts along that line 
because, obviously, you are doing some things pretty 
successfully----
    Ms. Young-Kent. Yes.
    Senator Harkin [continuing]. If your kids are meeting these 
proficiencies when they enter school.
    Ms. Young-Kent. And we don't have an achievement gap.
    Senator Harkin. Mm-hmm. Well, that is good. That is nice.
    Ms. Young-Kent. Yes.
    Senator Harkin. That is great. That is another term?
    Ms. Young-Kent. Yes.
    Senator Harkin. We have failing schools, but we also have 
achievement gaps. Even in good schools, we have achievement 
gaps between students. And so, you say in your group, you don't 
have that achievement gap.
    Ms. Young-Kent. That is correct.
    Senator Harkin. Well, if you have any thoughts on how we 
might fashion the Elementary and Secondary Education Act to 
more closely align with Head Start, just from your own personal 
standpoint, I would like to know about it.
    Ms. Young-Kent. Okay.
    Senator Harkin. Okay, thanks.
    Dr. Durham, just I was just thinking here, what is the--if 
there is an average, what is the average starting salary or 
wages of an RN in Iowa?
    Dr. Durham. In Iowa, it is between $40,000 and $45,000. 
Around the Cedar Valley, new RNs right out of school would 
start between $20 and $22 an hour.
    Senator Harkin. Mm-hmm. I keep hearing that a lot of our 
nurses are leaving and going to some other States, that there 
is a drain on our well-qualified RNs.
    Dr. Durham. Well, at least our graduates generally stay in 
Iowa. And interestingly----
    Senator Harkin. Well, that is nice.
    Dr. Durham [continuing]. Even when they leave Iowa, a lot 
of them come back when they decide to start families.
    Senator Harkin. That is true.
    Dr. Durham. Because they love Iowa.
    Senator Harkin. That is true.
    Dr. Durham. And it is true that States that have greater 
shortages than Iowa, of course, do come to Iowa, just as they 
do in education to recruit teachers. They come to Iowa to 
recruit nurses. So----
    Senator Harkin. In a way, that speaks well for us.
    Dr. Durham. Speaks well for us.
    Senator Harkin. But it also makes us want to make sure that 
we keep more of them here in the State of Iowa. But again, with 
that kind of a starting salary, if a student graduates with a 
debt load of $25,000 or $30,000, which could be oppressive.
    Dr. Durham. Generally, nurses in many other States are paid 
a higher salary.
    Senator Harkin. That is right.
    Dr. Durham. So they could go to Minnesota, for example, and 
work at Mayo at $28 to $30 an hour to start without a much 
higher cost of living. And we do have a fair number of 
graduates who go to Mayo and to other places. I am sure you are 
aware that the reimbursement rate for medical care in Iowa is 
not very high, which is one of the reasons why the salaries for 
nurses, both starting nurses and experienced nurses, is lower 
in comparison to many other States.
    Senator Harkin. Just again, to follow up on that, I worked 
very closely with the Congressman from this area, Congressman 
Braley, when we passed the healthcare bill to get that bump-up 
in the reimbursement rate.
    Dr. Durham. Yes. Yes.
    Senator Harkin. That is in there. So a repeal of healthcare 
would wipe that out.
    Dr. Durham. Yes. We greatly appreciate that assistance 
because it has been a problem for so many years in this State.
    Senator Harkin. Yes. Long, long, time.
    Reverend Anderson, again, we talked about earmarks. I guess 
you mentioned it. I didn't. And for those of you in the 
audience and others, I have always been a very strong proponent 
of what has been called earmarks. I don't even know why it is 
called that.
    We have always referred to it as ``congressionally directed 
funding'' because Congress directs it one way or the other. I 
always give a little tutorial on the Constitution of the United 
States. The Constitution of the United States gives the power 
of the purse to Congress, not to the President.
    The President of the United States cannot spend one nickel 
of taxpayers' dollars except for what the Congress gives him 
the authority to do. And so, it has almost gotten to the point 
now where the President says they get to decide where all the 
money goes. Well, that is not so. That is not so.
    And so, we have fought hard in Congress to retain the right 
and to retain what is a constitutional obligation to direct 
monies to certain things. A lot of the programs that you have, 
like Barnabas Uplift, is the kind of a program, it doesn't fit 
into a niche. I mean it doesn't fit into Social Security. It 
doesn't fit into WIA. It doesn't fit into some structured kind 
of program.
    And so, those of us who have this authority and 
responsibility would look at things like this, and you say, can 
we help them out? Is there some way that we can direct some 
money to programs like this to see if they really work? 
Sometimes they don't. Quite honestly, sometimes we put money 
into certain things, and they just don't pan out very well.
    But we can put a small amount of money into programs like 
this. They are backed by a lot of times religious institutions, 
nongovernmental organizations, Boys and Girls Clubs or the Y, 
or things like that, and so you get a lot of bounce off of that 
dollar out there. And they really do take one dollar of 
taxpayer money and really magnify it a great deal and help a 
lot of people.
    And so, we look at those very closely. And Barnabas Uplift, 
from everything that I have been able to see and my staff has 
been able to see, is one of those that just does a wonderful 
job in taking a taxpayer dollar and boosting it a lot, and 
helping people that don't quite fit into a structure or 
someplace that would come from Washington.
    And so, that is why I happen to have a disagreement with my 
own President on this. But it is a funny thing about 
Presidents. I don't know what it is. They just think they get 
to run everything.
    And I don't care what party they are. Every President that 
I have known since Jimmy Carter, and I have been there since 
Carter. Well, I was there with Ford. Every single one of them, 
it doesn't make a difference whether they are Republicans or 
Democrats, once they get in there, they think they got to run 
it and Congress doesn't count for anything. And this President 
is in the same mold. I don't know why it is, but they get 
there.
    So we are having this little bit of a battle, but we have 
had it before with other Presidents. And so, we are going to do 
everything we can to, again, make sure that we are able to 
respond to needs, to seek out and find good people who are 
doing wonderful things in their community that may need just a 
little bit of help to do something.
    So I am glad you brought that up. I wasn't going to talk 
about it, but I think that people should understand when the 
President says he is going to veto any bill with earmarks, he 
is going to have to veto his own budget.
    Now next week, when does the President's budget come out? 
Next week?
    Male Speaker. February 14.
    Senator Harkin. February 14, the President's budget comes 
out. I will give you a little preview. I am going to go over to 
the floor of the Senate. I am going to have a chart there. I am 
going to have the President's budget--Office of Management and 
Budget (OMB), that is the President's budget arm--they are 
going to have their budget.
    And guess what? There are going to be certain programs that 
are going to increase and certain things that are going to 
decrease. That is the President's earmark. That is what the 
President wants to do.
    Well, what about what we in Congress may want to do? We may 
not want to do exactly like the President wants to do, but that 
are his earmarks. That is his decision on how to spend 
taxpayers' dollars. And so, when we earmark money, that is our 
decision on how we should spend it. And quite frankly, I think 
we have the upper hand because the Constitution of the United 
States is clear. Only Congress has the power of the purse and 
not the executive branch.
    So I didn't mean to get off on that. But it is just that I 
feel very strongly, as you can tell, about----
    Mr. Dotzler. We are with you.
    Senator Harkin [continuing]. Keeping our ability to help 
good people and good things out there that I have done work 
with Boys and Girls Clubs and the Y and so many other things 
where just a little bit of funds really go a long way. So I 
guess that wasn't so much of a question as to just elaborate a 
little bit upon what you said.
    But give us just another little flavor of this. How do you 
find the people that help you so much? You have a lot of people 
who volunteer their time on the weekends, evenings. How do you 
find people like that?
    Reverend Anderson. Iowans, particularly small-town Iowans 
really want to help their neighbors. My favorite story is Iowa 
Falls. I was there making a presentation describing what we are 
doing in Waterloo with Barnabas Uplift. And an elderly woman 
with a walker came over and asked me, ``Well, what would that 
cost to do something like that for the folks here in our 
town?''
    You know, I hem and haw, ``It is hard. There are a lot of 
variables. I can't really put a price tag on it right here and 
now.'' ``No, how much would it cost?'' ``Oh, at least 
$20,000.'' And she handed me a $20,000 check.
    Senator Harkin. Jeesh, whoa.
    Reverend Anderson. So we opened the program there. The 
Roman Catholic and Lutheran Church pooled together. Some weeks, 
the Lutherans provide childcare and the Catholics cook the 
meal. The next week, we change. We get retired teachers to come 
do childcare. So when the student is done with class, the child 
has been fed. The homework is done. They are ready for bed.
    Just about every time we find a barrier for someone who 
wants to get a job to get a good job, we try to eliminate that 
barrier just by the pastors, the priests, the Imams, and the 
leaders of the community just calling out and saying we can 
really help a family by doing this. When we are able to do 
that, there is no shortage of volunteers. There are people very 
much wanting to help.
    But this sort of social entrepreneurism does need some cash 
up front, Senator, and your office has been very helpful with 
us. And your office has pushed us to create documents so that 
this program could be duplicated anywhere in the country, and 
that is an experiment to try to create something new.
    Senator Harkin. That is the other thing that we can do with 
these earmarks, is find programs that are really successful and 
multiply them. There are a lot of places that are now 
nationwide that started out as a program just like that. And 
you duplicate it, and you build it up regionally, nationally. 
And then pretty soon, it doesn't take much Government support 
at all to keep it going.
    Reverend Anderson. If I may, we received the first earmark, 
and at the end of the year it was set for, we contacted 
Department of Labor, where the money came from, and said this 
is way more efficient than we thought it would be, and we 
didn't spend all the money and we don't want another earmark. 
And so, we were able to run for a second year with no 
additional funds.
    Senator Harkin. Great.
    Reverend Anderson. We came back and said now we have 
expended all that money. We would like to expand to five more 
cities, and that is in the bill that didn't make it.
    Senator Harkin. Yes.
    Reverend Anderson. It is great to cut the budget. But to 
cut the budget by taking job opportunities away from the 
poorest Iowans is bad math and in some ways just plain mean.
    Senator Harkin. Bad morals, too.
    Jonathan Keniston, great story. What would happen if you 
couldn't get a Pell grant?
    Mr. Keniston. Well----
    Senator Harkin. And your wife, too, right?
    Mr. Keniston. Yes.
    Senator Harkin. And she is going to school now?
    Mr. Keniston. Yes, that is correct. You know, that Pell 
grant funding is just fundamental to us being able to juggle 
the finances and taking care of three children under the ages 
of 5, paying our bills, and moving forward. And time is such a 
precious commodity that when you are going through school it is 
hard to come by.
    And the faster we can go through school, which is allowed 
by the Pell grants that we have been taking advantage of, just 
I guess will accelerate us faster into our positions and our 
careers.
    Senator Harkin. Now, tell me again, where are you in 
school?
    Mr. Keniston. I am graduating in a couple of months from 
Hawkeye.
    Senator Harkin. Right.
    Mr. Keniston. And then I have been accepted at Allen 
College in the radiography program.
    Senator Harkin. Right here. Good.
    All right, Dr. Durham, you have got a good student coming 
your way.
    Dr. Durham. Indeed.
    Senator Harkin. But I think, again, just illustrative of 
because you have three children.
    Mr. Keniston. Yes.
    Senator Harkin. And I assume you have no other family 
support. Your father has passed away. And so, you rely just 
upon these grants and, I guess, work that you do, part-time 
work?
    Mr. Keniston. Yes.
    Senator Harkin. That is why this is just so vitally 
important on these Pell grants to make sure that we continue 
those.
    Now I have a whole bunch of questions here. I have a 
feeling that many of them are for me, but there may be some for 
the panel. Again, I just open it up to the panel, anything else 
that you think that we should know or take into account just 
listening to some of the things we have been talking about 
here. If you have anything at all that you would just like to 
bring up, I just throw that out at all.
    Dr. Allen. Senator Harkin.
    Senator Harkin. Dr. Allen.
    Dr. Allen. What I am hearing across the seven individuals 
today is something that I think needs to be underscored. That 
the Federal programs that we all depend upon in some way are 
complemented by efforts at the State level and the private 
sector.
    Senator Harkin. That is right.
    Dr. Allen. And so, it is really just not the Federal 
Government, but that Federal Government support forms a 
baseline that is so important for the other pieces to be 
successful. I will give you an example, which I might have 
mentioned earlier.
    My wife and I had the pleasure and the privilege of being 
the co-chairs of United Way for this area of the State this 
year. And if you look in those agencies that are supported by 
the Federal Government, there are also other pieces to it, 
private giving, and other sources of revenue. But there is also 
a fairly consistent finding that, despite all these different 
sources, we came up short and that the agencies couldn't 
provide all the services that were being requested.
    And so, I think we want to be sure that we understand this 
is part of the piece of all of these other sources, but still 
that baseline support is so important.
    Senator Harkin. I think that is an important point to make. 
Anything else that anybody would like to add to that?
    I am going to try to respond to some of these questions. 
Some may be for you. I just happened to see the first one here 
was (reading question card), ``Can the House kill the health 
bill by refusing to fund it?''
    The answer to that is yes, and we anticipate that will 
probably happen. As you know, there was a repeal motion in the 
House that passed. There was a repeal amendment this week in 
the Senate, and it didn't pass.
    And so, we have anticipated that the House, because of the 
Constitution, as you know, those bills originate in the House--
there may be efforts to not fund a certain portion, or no 
money--usually, it would be ``no funds can be expended for this 
purpose'' but then that has to come to the Senate, and we don't 
have to accept that.
    The real question is--what happens--because you know for 
the President to sign a bill, it has to pass both Houses in the 
same, exact form--what happens if the House digs in its heels 
and says, no, they won't fund this and the Senate says we will, 
then what happens to funding for the Government?
    And that is where there is a lot of talk about, will there 
be a shutdown of the Government, because we will run out of 
money to run the Government? I hope it doesn't come to that. I 
hope it doesn't come to that.
    The second thing is that because of the scoring by CBO, the 
healthcare bill, as it is now being implemented, actually saves 
money. As I said, they estimate about $240 billion this decade. 
In order to stop something in that healthcare bill, that is 
going to cost money. And so, if they want to stop the funding, 
they are going to have to come up with the money to make up for 
the deficit or find some way of raising the money for it 
because the healthcare bill saves money.
    So that is just my way of saying that you are probably 
right. I think there will be attempts to do that, but I hope in 
the end they will not be successful and that we will be able to 
move ahead.
    I just say this on the healthcare bill. I don't know why we 
are fighting this battle again. I am not saying that there are 
not things in the health reform bill that can't be modified or 
changed. I said when we passed the health reform bill, I 
likened it to a starter home, you know? Yes, well, you can 
change a little bit here and add a little bit here, move 
something here. That is true of any law that we pass.
    So I would, if people have suggestions on how to modify it 
and make it better and change it, okay, fine. That can be a 
good debate. But just to say repeal it outright is going back a 
couple of years and fighting old battles again and, plus, just 
increasing the deficit in this country.
    Let us see (reading question card), ``I feel the health 
insurance exchanges are an exciting new policy. Can you go into 
more depth on them, how they are going to impact at the State 
level?''
    Well, when the exchanges are up by 2014, it just means that 
any individual or small business, self-employed who is not on a 
private insurance policy through their employer can then go to 
the exchange, and on that exchange, there will be several 
different policies. And so, you can pick and choose those 
policies that are best for you or your family. There will be 
competition. There will be transparency. Everybody will know 
what every policy has, how much they cost, what they cover.
    And then there will be a sliding scale of subsidies for 
individuals, tax credits for businesses and others that want to 
go on that exchange. And so, it is just going to open up--
again, let us say that someone is, as I said earlier, in a 
job--they don't want to move because maybe they have a pre-
existing condition or they will just lose their health 
insurance, but they would like to go out and do something else.
    Well, now they will be able to do that, go on the exchange, 
get a health insurance policy, be able to get a subsidy for it, 
if they qualify, and not fear that they will never be without 
health insurance coverage for any part of their life. And so 
basically, that is how the exchanges are going to work on the 
State level.
    Now, again, will there be changes made to that? Well, you 
know, we will see how they work and how they are being 
implemented and there may be modifications to it down the road, 
but that is basically how it is going to work.
    Is there anything else I can add to that? I'll check with 
my experts here.
    Senator Harkin. (reading question card) ``The President has 
proposed cutting CSBG funding by 50 percent. This will 
dramatically impact our most vulnerable families. How does the 
Senator feel about this proposed cut?''
    Kim, you mentioned in your statement, at least in your 
written statement, that you were working with a certain 
community action agency. Was it----
    Ms. Young-Kent. Right. Operation Threshold, which is our 
community action agency here.
    Senator Harkin. Operation Threshold. Well, tell me, what 
would it mean in terms of your association with them and what 
would they do if they were cut by 50 percent?
    Ms. Young-Kent. Well, our families rely on those--that 
entity and that agency. For example, they have got--women, 
infants, and children (WIC) services come through----
    Senator Harkin. Women, infants, and children services.
    Ms. Young-Kent. Yes, excuse me. Yes, come through Operation 
Threshold, as well as just the administration of their entity 
as they work to serve the community's most vulnerable 
population.
    Senator Harkin. Do they----
    Ms. Young-Kent. Their mission is children and families in 
poverty.
    Senator Harkin. Do they administer the Head Start program 
in your area or not?
    Ms. Young-Kent. They do not.
    Senator Harkin. They don't.
    Ms. Young-Kent. We are a stand-alone program.
    Senator Harkin. Okay. Some in places they do.
    Ms. Young-Kent. In the State of Iowa, there are 19 Head 
Start grantees, and 16 of them are community action programs.
    Senator Harkin. Administered by the community action 
programs?
    Ms. Young-Kent. Yes. Yes.
    Senator Harkin. How many people here know what a community 
action agency is? How many people know what they are?
    Senator Harkin. Oh, good for you. That is great.
    Community action agencies have been wonderful in many ways. 
First, because they involve local people. They get local 
control and they are able, to have flexibility in what they can 
do. And all community action agencies have boards of directors 
who are made up of local citizens.
    Ms. Young-Kent. Elected officials.
    Senator Harkin. Elected officials, business people.
    Ms. Young-Kent. Right. And participants in the program.
    Senator Harkin. And participants in the program. I have met 
a lot of business owners who are on boards of the community 
action agencies, educators. And so, what this does is it allows 
the local communities to get a good feel for these programs and 
how they work and what the WIC program is or the Head Start 
program or the LIHEAP, the Low-Income Heating Energy Assistance 
Program, and how they work.
    To me, this is the essence of good government, to get it 
out to people and let them make some decisions on how these 
things operate. For the life of me, I don't understand this 
proposed 50 percent cut. No one checked with me on it, and it 
happens to be in my jurisdiction. And I can tell you, I will do 
everything I can to prevent that from happening.
    I just--I don't get it. I don't get that.
    Ms. Young-Kent. Part of the essences behind community 
action is it is a one-stop shop for our families so they don't 
have to go to this agency to get that accomplished and this 
agency to get the next accomplished and find another place. But 
we have got an entity where we can bring services together to 
serve our vulnerable populations.
    Senator Harkin. Well, what I am doing is, I am going to 
OMB, the President, and I have said, okay, what is wrong with 
the community action program? Do you have some suggestions on 
how we change it, let me know? I mean, I am all for looking if 
there are better ways of running things and stuff like that. 
But to just whack it by 50 percent? I don't think so.
    So I am anxious to see why they believe it would be in our 
best interest to cut it by 50 percent. And I have not seen any 
indication of that anywhere in my years in Congress. In fact, I 
think it has been very well run and run with very little 
overhead.
    Anyway (reading question card), ``As you know, nothing has 
a larger impact on our overall health than what we eat. As you 
have said, there are not enough fruits and vegetables grown in 
the United States.'' Boy, this is getting a little bit--``what 
can be done to make USDA subsidies match nutritional 
guidelines?''
    Well, that is a good question when you talk about 
healthcare. Well, quite frankly, we have a Secretary of 
Agriculture, right now, that is moving in that direction. I 
mean, he really has moved on these guidelines, and that is a 
guy by the name of Tom Vilsack. We kind of know who he is.
    And I have been very encouraged by what Secretary Vilsack 
has been doing with our guidelines and what First Lady Michelle 
Obama has been doing to make sure we get better foods for our 
kids. As you know, in the waning days of the Congress, we 
passed the new nutritional standards for kids in school. 
Beginning actually this next school year, we are going to get 
rid of all sugared drinks in schools and candy snacks and all 
that kind of stuff. We are moving toward better school feeding 
programs, more fruits and vegetables in our school lunch 
programs.
    So that is taking place, and the new guidelines, as a 
matter of fact, that the Department of Agriculture came out 
with, I think, again are moving us in that right direction. So 
I feel good about that.
    And also in the healthcare bill, we put--a big part of that 
of the healthcare bill is prevention and wellness, and we have 
set up a prevention fund, a wellness fund that is going to be 
geared toward the idea of keeping people healthy in the first 
place rather than just taking care of people when they get 
sick.
    For example, in January of this year, under the healthcare 
bill, just last month, any person on Medicare can now get a 
free annual checkup with no copayments and no deductibles. They 
can get colonoscopy without any copays or deductibles. They can 
get mammogram screenings, no copays or deductibles. And they 
can get a health status, a wellness guideline. Every elderly 
person now can get a wellness guideline at their checkup that 
will instruct them about what they should eat and how they 
should exercise and quit smoking and all that.
    Again, that is to try to get our elderly to eat better, 
exercise more, cut back on smoking, stay healthy. So that is 
part of the healthcare bill, and that just went into effect in 
January.
    Now I am told that there are more comments and questions. I 
am sorry I can't get to all of them now. You are right. I think 
we have--yes, we have run out of time. But to the extent that I 
have people's names and addresses, I will answer them and get 
back to you on those. I want you to be reassured of that, that 
I will have my staff get those to me and we will get back to 
you on them.
    Is there anything else that the panel--you have been very 
kind and generous with your time and your expertise. Any other 
thing for the good of the audience here that we need to go 
over?
    Erik, do you have anything that we may have missed? I did 
miss one thing. I wanted to--oh, I wanted to thank our sign 
language interpreter, Karlene Kischer-Browne. Thank you very 
much.
    Senator Harkin. So if there is nothing else, thank you very 
much, panel. Thank you all for being here, and I will be here 
for a while. If you want to talk to me privately off the record 
and stuff like that, we will be able to do that.

                         CONCLUSION OF HEARING

    So the subcommittee will stand recessed.
    [Whereupon, at 2:20 p.m., Saturday, February 5, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
